<html>
<title> - H.R. 2523, ``HELPING EXPEDITE AND ADVANCE RESPONSIBLE TRIBAL HOMEOWNERSHIP ACT OR THE HEARTH ACT''</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                     H.R. 2523, ``HELPING EXPEDITE
                        AND ADVANCE RESPONSIBLE
                       TRIBAL HOMEOWNERSHIP ACT
                          OR THE HEARTH ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, October 21, 2009

                               __________

                           Serial No. 111-39

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
52-940                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel


                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, October 21, 2009......................     1

Statement of Members:
    Baca, Hon. Joe, a Representative in Congress from the State 
      of California..............................................     5
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
    Heinrich, Hon. Martin, a Representative in Congress from the 
      State of New Mexico........................................     3
        Prepared statement of....................................     3
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     4
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     4
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Chavez, Hon. Everett, Governor, Pueblo of Santo Domingo, New 
      Mexico.....................................................    13
        Prepared statement of....................................    14
    Gidner, Jerry, Director, Bureau of Indian Affairs, U.S. 
      Department of the Interior, Washington, D.C................     5
        Prepared statement of....................................     6
    Moses, Hon. Harvey, Jr., Second Vice-President, Affiliated 
      Tribes of Northwest Indians, Portland, Oregon..............    15
        Prepared statement of....................................    16
    Parish, Cheryl A., Executive Director, Bay Mills Housing 
      Authority, Brimley, Michigan...............................    22
        Prepared statement of....................................    24
    Trujillo, Arvin, Executive Director, Division of Natural 
      Resources, Navajo Nation, Window Rock, Arizona.............    19
        Prepared statement of....................................    21

                                     


 
   LEGISLATIVE HEARING ON H.R. 2523, ``HELPING EXPEDITE AND ADVANCE 
       RESPONSIBLE TRIBAL HOMEOWNERSHIP ACT OR THE HEARTH ACT.''

                              ----------                              


                      Wednesday, October 21, 2009

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:45 a.m. in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall, II, 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Kildee, Napolitano, 
Heinrich, Inslee, Baca, Herseth Sandlin, Hastings, Lummis, and 
McClintock.

   STATEMENT OF HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources will come 
to order.
    The Committee is meeting today to receive testimony on H.R. 
2523, the Helping Expedite Affordable Responsible Tribal 
Homeownership Act, introduced by our colleague, Mr. Heinrich of 
New Mexico. This bill has a bipartisan list of 25 co-sponsors, 
including 13 members of this Committee.
    H.R. 2523 would amend the Indian Long-Term Leasing Act of 
1955 to authorize Indian tribes to negotiate and execute 
certain leases once tribal regulations have been approved by 
the Secretary of the Interior. As tribal governments become 
more and more sophisticated and business-savvy, it sometimes 
becomes necessary to amend existing laws. Such is the case with 
the Indian Long-Term Leasing Act, which authorizes tribes to 
enter into 25-year leases.
    Every year tribes come to our Committee seeking extended 
leasing authority, and nearly every year we amend the Act to 
assist the tribes. The Navajo Nation has long been a self-
governing entity, and I commend their ability to incorporate 
traditional government structure into the modern-day 
government.
    In 2000, legislation was passed granting the Navajo Nation 
the authority to negotiate and execute business, agriculture, 
public use, religious, educational, recreational, or 
residential leases as tribal trust land without additional 
Secretarial approval, once tribal regulations had been approved 
by the Secretary of the Interior. The measure that is the 
subject of today's hearing would extend that authority to all 
Federally recognized tribes.
    I want to thank the gentleman from New Mexico, Mr. 
Heinrich, for his valued leadership on this issue, and for 
bringing this important legislation to our Committee. The 
number of colleagues that have co-sponsored, just from our 
Committee alone, shows the respect with which we all hold him 
and appreciate his leadership. And we do look forward to 
hearing from the witnesses this morning.
    I recognize the Ranking Minority Member.
    [The prepared statement of Chairman Rahall follows:]

       Statement of The Honorable Nick J. Rahall, Ii, Chairman, 
                     Committee on Natural Resources

    The Committee is meeting today to receive testimony on H.R. 2523, 
``the Helping Expedite Affordable Responsible Tribal Homeownership 
Act'' introduced by our colleague, Mr. Heinrich of New Mexico. This 
bill has a bipartisan list of 25 cosponsors including 13 members of 
this committee.
    H.R. 2523 would amend the Indian Long Term Leasing Act of 1955 to 
authorize, Indian tribes to negotiate and execute certain leases 
without Secretarial approval, once tribal regulations have been 
approved by the Secretary of Interior.
    As tribal governments become more and more sophisticated and 
business savvy, it sometimes becomes necessary to amend existing laws. 
Such is the case with the Indian Long Term Leasing Act which authorizes 
tribes to enter into 25 year leases. Every year tribes come to our 
committee seeking extended leasing authority, and nearly every year we 
amend the Act to assist the tribes.
    The Navajo Nation has long been a self-governing entity and I 
commend their ability to incorporate traditional governing structures 
into their modern day government.
    In 2000, legislation was passed that granted the Navajo Nation the 
authority to negotiate and execute business, agricultural, public use, 
religious, educational, recreational, or residential leases of tribal 
trust land without additional Secretarial approval, once tribal 
regulations have been approved by the Secretary of Interior. H.R. 2523 
would extend that authority to all federally recognized tribes.
    I thank Mr. Heinrich for bringing this important legislation to us 
and I look forward to hearing from our witnesses here this morning.
                                 ______
                                 

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you very much, Mr. Chairman, and thank 
you for scheduling the hearing on H.R. 2523.
    Although this bill is called the Helping Expedite and 
Advance Responsible Tribal Homeownership Act, or the HEARTH Act 
for short, the legislation actually consumes more than just 
leasing of tribal lands for housing purposes. It fundamentally 
shifts Congressional policy over recognized Indian tribes in 
what I consider, Mr. Chairman, to be the right direction.
    From what I understand, the impetus of the bill originated 
from certain tribes that want to reduce the kind of red tape 
and inefficiency that is inherent within the Federal 
bureaucracy. While the provisions of the bill are strictly 
voluntary in nature, I firmly believe that tribes which do 
choose to assume more control over leasing their land will find 
that the long-term rewards outweigh the risk and responsibility 
of requiring more autonomy from the Bureau of Indian Affairs.
    I would note that the bill does not pertain to mineral 
leasing of tribal lands. Such leasing is generally governed by 
separate Indian mineral leasing law, which was amended in 2005, 
to give tribes control over energy development on their lands 
through tribal energy resource agreements.
    Mr. Chairman, I think it would be helpful for this 
Committee in the near future to examine the status of energy 
leasing on Indian lands, just as we are examining the status of 
other types of leasing activities today.
    So with that, Mr. Chairman, thank you for having this 
hearing, and I look forward to hearing from our witnesses.
    The Chairman. OK. I will recognize the sponsor of the 
legislation first, Mr. Heinrich.

STATEMENT OF HON. MARTIN HEINRICH, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Heinrich. Thank you, Mr. Chairman, and thank you for 
holding this hearing, and for your comments and those of the 
Ranking Member, as well. And I want to thank all the witnesses 
who are here this morning.
    I introduced the HEARTH Act after meeting with several 
housing directors from New Mexico's Pueblos, where I learned 
about the owner's process for securing a long-term lease on 
Indian Trust land. We all know how important homeownership is 
to healthy communities, and I think the last thing that the 
Federal government should do is to stand in the way of families 
who are ready, willing, and able to buy a home.
    Native families buying a home go through the same process 
as anyone else. They find a house they like, they work with 
their bank to gain approval for financing for a mortgage, and 
they make an offer to the seller. However, before these 
families can close on a sale, they need approval from the 
Bureau of Indian Affairs to lease the land that the house is 
built on. That approval can take anywhere between six months 
and two years, which sometimes is an intolerable delay for most 
buyers. A seller is rarely able to wait two years to sell their 
home, and banks are often unable to hold a mortgage approval 
for that long.
    I know there are many families who would prefer to stay and 
raise their children in the community where their families have 
lived for generations, but instead have moved to nearby cities 
because they want to own their own home. While we are happy to 
welcome them to great cities like Albuquerque, families 
shouldn't be forced to make such an important decision based on 
how many months or years it will take the Federal bureaucracy 
to approve a mortgage on tribal land.
    Many tribes already have a lease approval process through 
their tribal government that approves land sales, or land 
leases, before they are sent to the BIA. For those tribes that 
want the authority and the responsibility for making final 
leasing decisions at the tribal level, the HEARTH Act would 
give them the option of doing so.
    Our nation is home to a vast diversity of tribes, and 
Federal policy should reflect that diversity. The HEARTH Act 
will allow tribes to exercise greater control over their land, 
and eliminate the bureaucratic delays that stand in the way of 
homeownership in tribal communities.
    Thank you again, Mr. Chairman, for holding this hearing, 
and I would yield back the balance of my time.
    [The prepared statement of Mr. Heinrich follows:]

    Statement of The Honorable Martin Heinrich, a Representative in 
                 Congress from the State of New Mexico

    Thank you, Mr. Chairman, and thank you to all the witnesses here 
this morning.
    I introduced the HEARTH ACT after meeting with several housing 
directors from New Mexico's pueblos where I learned about the onerous 
process for securing a long-term lease on trust land.
    We all know how important homeownership is to healthy communities, 
and the last thing the federal government should do is stand in the way 
of families ready and willing to buy a house.
    Native families buying a house go through the same process as 
anyone else: they find a house they like, work with their bank to gain 
approval for a mortgage, and make an offer to the seller.
    But before these families can close on the sale, they need approval 
from the Bureau of Indian Affairs to lease the land the house is built 
on. That approval can take between six months and two years--an 
intolerable delay for most buyers.
    A seller is rarely able to wait two years to sell their house, and 
banks are often unable to hold a mortgage approval for that long.
    I know there are many families who would prefer to stay and raise 
their children in the communities where their families have lived for 
generations--but instead have moved to nearby cities because they want 
to own a home.
    While we're happy to welcome them to the great city of Albuquerque, 
families shouldn't be forced to make such an important decision based 
on how many months or years it will take a federal bureaucracy to 
approve a mortgage on tribal land.
    Many tribes already have a lease approval process through their 
tribal government that approves land leases before they're sent to BIA.
    For those tribes that want the authority and responsibility for 
making final leasing decisions at the tribal level, the HEARTH Act 
would give them the option of doing so.
    Our nation is home to a vast diversity of tribes, and federal 
policy should reflect that diversity.
    The HEARTH Act will allow tribes to exercise greater control over 
their lands and eliminate bureaucratic delays that stand in the way of 
homeownership in tribal communities.
    Thank you again, Mr. Chairman, for holding this hearing, and I 
yield back my time
                                 ______
                                 
    The Chairman. Congressman Kildee.

STATEMENT OF HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. Mr. Chairman, thank you very much for having 
this hearing. Your abiding interest in justice for our Native 
Americans certainly reaches back to at least the 33 years that 
you have been in Congress, and the Indians have benefitted from 
your sense of justice.
    And I want to thank Mr. Heinrich, who, as soon as he became 
a Member of Congress, joined the Native American Caucus, 
expressing his concern for justice for our first Americans. I 
thank both of you for your deep interest, and I am just proud 
to be a co-sponsor of this bill.
    Thank you very much, Mr. Chairman.
    The Chairman. The gentlelady from California, the Chairman 
of the Subcommittee on Water and Power, Mrs. Napolitano.

    STATEMENT OF HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman. And I, too, am in 
full support of H.R. 2523.
    Fact-finding. Native Americans have been on the back of the 
bus for a long, long time in being able to get heard in many 
areas. We deal with it in water rights in my Subcommittee, and 
this will deal with housing. I think it is long-coming, and I 
think we ought to be able to move forward on being able to 
allow what is fair to delete some of these lengthy processes, 
delays, and this forcing some of the families to move out of 
their areas to be able to purchase their residences.
    And my hat is off to the Navajo Nation for being the first 
one to do it. And I look forward to making sure that we work 
with Mr. Heinrich in getting this bill passed.
    Thank you, Mr. Chair.
    The Chairman. The gentleman from California, Mr. Baca.

 STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Baca. Thank you very much, Mr. Chairman, Minority 
Ranking Member. And I thank you for bringing up H.R. 2523. As 
Mr. Kildee said, it is not just about justice, but it is about 
equality. Equality becomes very important as we have to treat 
everybody with the same opportunities. And like most of us, the 
American dream is to own a home, obtain a home, live in the 
same area, take our kids to the surrounding areas without 
having to move.
    I know, for example, coming from a large family, we had to 
move from one district to another district to another district, 
and finally my parents were able to settle and buy a home. And 
it was the dream that I finally had where I had my roots, it 
was settled in one particular area, and not having to rent one 
place or another and moving from one school to another. Because 
it not only affects the quality of life for the individuals, 
but for the children as well, that have to make any kind of 
transition.
    It is too bad that we are only talking about a 25-year 
lease, because it means owning a home, but not the land. It 
could be a combination of both owning the land and owning the 
home at the same time, and hopefully we can work on the other 
as well, sometime in the future.
    I look forward to supporting this legislation, and I am 
currently a co-sponsor. Again, thank you very much for bringing 
it up and caring, because we should treat everybody with the 
same rights, the same kind of equality. It doesn't matter who 
we are or where we come from.
    Thank you. I yield back the balance of my time.
    The Chairman. The Chair will now recognize our first panel, 
composed of one individual, Mr. Jerry Gidner, the Director of 
the Bureau of Indian Affairs, Department of the Interior, 
Washington, D.C. We welcome you, and we do have your prepared 
testimony. It will be made part of the record as it is actually 
read, and you may proceed with it now.

STATEMENT OF JERRY GIDNER, DIRECTOR, BUREAU OF INDIAN AFFAIRS, 
       U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Mr. Gidner. Thank you. Good morning, Mr. Chairman and 
Ranking Member, members of the Committee. My name is Jerry 
Gidner. I am the Director of the Bureau of Indian Affairs at 
the Department of the Interior, and I am here to provide 
testimony on H.R. 2523, otherwise known as the HEARTH Act, 
which, as you mentioned, is a bill to amend the Act titled ``An 
Act to authorize the leasing of restricted Indian lands for 
public, religious, educational, recreational, residential, 
business, and other purposes requiring the grant of long-term 
leases.''
    The Administration and this Department support tribal self-
determination and self-governance. We want to work closely with 
tribes, this Committee, and Congress to address the lease 
approval processes that will help not just to expedite housing 
opportunities, but economic and other developmental 
opportunities for tribes.
    We share the Committee's desire to address these leasing 
issues, and we could support this bill if it was amended to 
address concerns that are laid out in the testimony. We look 
forward to working with this Committee and the staff to address 
these concerns.
    As we understand it, the purpose of the HEARTH Act is to 
amend certain sections of 25 USC 415 to allow tribes, at their 
discretion, to approve and enter into certain leases without 
the approval of the Secretary, if those tribes have regulations 
that have been approved by the Secretary. Currently the bill 
allows that for the Navajo Nation, with certain caveats.
    First, the leases must be executed under regs approved by 
the Secretary. And there are time limits, as the Member just 
stated, on the length of the leases that can be approved.
    The HEARTH Act will provide those same authorities to any 
Federally recognized Indian tribe at that tribe's discretion, 
with the same restrictions. And we support the increase in 
authority to the tribes, but we do need to point out the 
impacts to the Department from that bill if it were passed.
    For example, we would like to clarify the Secretary's trust 
responsibilities for enforcing tribally-approved leases. We 
would also like to study further whether the HEARTH Act should 
clarify the language regarding the Federal government's 
liability in situations where losses may occur in leases 
approved by the tribe.
    In addition, there are several impacts on our operations 
that we would like to evaluate, including the process for the 
Secretary to approve new Departmental regulations and the 
Secretarial process for approving tribal regulations.
    The HEARTH Act will also require BIA to prepare and submit 
a report to Congress regarding the history and experience of 
Indian tribes in consultation with the Department of Housing 
and Urban Development, and Indian tribes that manage the land 
title and record office functions. We agree with the factors to 
be considered and reviewed as set forth in the Act.
    We look forward to working through our concerns with the 
Committee. And that concludes my testimony, and I would welcome 
your questions.
    [The prepared statement of Mr. Gidner follows:]

    Statement of Jerry Gidner, Director, Bureau of Indian Affairs, 
                    U.S. Department of the Interior

    Good morning, Mr. Chairman, Mr. Ranking Member, and Members of the 
Committee. My name is Jerry Gidner and I am the Director for the Bureau 
of Indian Affairs (BIA) at the U.S. Department of the Interior 
(Department). I am here today to provide the Department's testimony on 
H.R. 2523, a bill to amend the Act titled ``An Act to authorize the 
leasing of restricted Indian lands for public, religious, educational, 
recreational, residential, business, and other purposes requiring the 
grant of long-term leases'', approved August 9, 1955, also known as the 
``Helping Expedite and Advance Responsible Tribal Homeownership Act'', 
or the ``HEARTH Act''.
    The Administration and this Department support tribal self-
determination and self-government. We want to work closely with tribes, 
this Committee and Congress to address the lease approval processes 
that hinder not just housing opportunities in Indian Country, but also 
economic and other development opportunities. Therefore, the Department 
shares the Committee's desire to address leasing issues in Indian 
Country and to improve leasing authority in Indian Country through H.R. 
2523. The Department could support this bill if amended to address our 
concerns outlined in this testimony. We look forward to working with 
the Committee staff to address these concerns.
    As we understand it, the purpose of the HEARTH Act is to amend 
certain sections of 25 U.S.C. Sec. 415, the Indian Long-Term Leasing 
Act to allow Indian tribes, at their discretion, to approve and enter 
into certain leases without prior express approval from the Secretary 
of the Interior. 25 U.S.C. Sec. 415(e), specifically addresses the 
Navajo Nation's current ability to lease any restricted Navajo Nation 
lands, with a few exceptions, for public, religious, educational, 
recreational, residential, or business purposes without the requirement 
of the Secretary of the Interior's approval of such leases. This 
authority does contain certain provisos: 1) the Navajo Nation leases 
must be executed under the Nation's regulations approved by the 
Secretary of the Interior; 2) the lease cannot exceed 25 years for a 
business or agricultural lease, which can be renewed twice but each 
renewed term cannot exceed 25 years; and 3) the lease cannot exceed 75 
years for public, religious, educational, recreational, or residential 
purposes, if such a term is within the Navajo Nation's regulations.
    The HEARTH ACT would provide the same authorities to any federally 
recognized Indian Tribes, at that Indian tribe's discretion, to lease 
its lands, with the same restrictions in 25 U.S.C. Sec. 415(e), without 
the requirement of the Secretary of the Interior's approval of such 
leases, so long as such leases are executed under the Indian tribe's 
regulations that have been approved by the Secretary of the Interior. 
Given this broad increase in authorities for Indian tribes, which is 
consistent with this Administration's policy of supporting tribal self-
determination, the Department has identified several areas in the 
legislation that will impact the Department.
    The Department would like to clarify the Secretary's trust 
responsibilities for enforcing tribally-approved leases. The Department 
would also like to study further whether the HEARTH Act should include 
language that clarifies the Federal government's liability in 
situations where losses may occur in leases approved by the tribe. In 
addition, the Department will need to evaluate the impacts on 
operations, the Secretary's process for approving new Department 
regulations, and a Secretarial process for approving tribal 
regulations. For example, longer timelines will be necessary for 
reviewing and approving tribal regulations.
    The HEARTH Act would also require the BIA to prepare and submit a 
report to Congress regarding the history and experience of Indian 
tribes that have chosen to assume responsibility for operating certain 
Indian Land Title and Records Office (LTRO) functions from the BIA. 
Such review would include consultation with the Department of Housing 
and Urban Development Office of Native American Programs and those 
Indian tribes managing LTRO functions. The Department agrees with the 
factors to be considered in the review.
    We look forward to working through our concerns with the Committee 
so that we can wholeheartedly support this bill. This concludes my 
prepared statement. I will be happy to answer any questions the 
Committee may have.
                                 ______
                                 
    The Chairman. Thank you, Mr. Gidner. I will ask a couple 
quick questions, then turn to the Ranking Member.
    How long did it take for the BIA to approve the Navajo 
Nation leasing regulations promulgated pursuant to the Navajo 
Nation Leasing Act? Was there a Senate approval process?
    Mr. Gidner. I am not sure of the answer to that, Mr. 
Chairman, I would have to find that time out for you.
    The Chairman. Could you explain the process which was 
traveled?
    Mr. Gidner. Yes, certainly.
    The Chairman. What is the role of the BIA now that the 
Navajo Nation has the authority to issue leases without 
Secretarial approval?
    Mr. Gidner. Well, our role is to record the lease in our 
system, and that is actually one of the issues I think we need 
to examine. I am not sure how many leases have been approved by 
the Navajo Nation under this authority, and exactly how the 
lease income flows from that. I think those are things that we 
need to examine, exactly what our role would be in those 
leases.
    The Chairman. Are you in the process of doing that now, 
then?
    Mr. Gidner. We will do that, yes.
    The Chairman. What factors does the BIA take into 
consideration when determining whether or not to approve a 
tribal leasing application?
    Mr. Gidner. That is a good question, Mr. Chairman. Right 
now the statute says that they need to be, the tribal 
regulations need to be consistent with the Department's 
regulations. Right now, for example, we do not have specific 
residential lease regulations. We are in the process of 
developing those, so we would look to see if they are 
consistent with the regulations that we have. But in that case, 
on residential leases, we do not have regulations. So that is a 
little bit more of a difficult question to answer.
    The Chairman. Are you developing those regulations, then?
    Mr. Gidner. We are in the process of developing and 
revising a whole number of Trust regulations, that included. 
Right now we use our general non-agricultural leasing 
regulations for residential leases, but they are not specific 
to residential leases, and in some ways are probably not a very 
good fit for those leases.
    The Chairman. Thank you. The Chair recognizes Mr. Heinrich.
    Mr. Heinrich. Thank you very much. And I want to thank you 
for being here today, and for your testimony.
    One of the issues I wanted to touch on is that for home 
buyers on non-trust land, buyers can get their title and 
mortgage documentation finalized oftentimes within about 48 
hours. And obviously Trust land transactions are more 
complicated, but borrowers still need to be able to get their 
loans finalized within traditional banking timetables to be 
able to access credit.
    After discussions with experts in tribal housing, I 
understand that the timeframe is in the 10-day to two-week 
range for that. And because of the rapidity of interest rate 
changes, largely because of the rapidity of interest rate 
changes for bank mortgages, I was wondering what resources, in 
terms of money, people, technology, would the BIA need to be 
able to accomplish leasing decisions within that kind of a 
timeframe? Within a 10-day turnaround, say. And how does that 
compare with the current resources that are devoted to this 
process today?
    Mr. Gidner. Congressman, I would say we don't know the 
answer to that question right now. We have already undertaken 
an organizational assessment of all of our trust programs to 
try to determine exactly what our need is, to provide all of 
those services in a timely manner.
    I would say in general, those programs, land title programs 
and realty programs, are under-staffed. And of course, any 
requests for budgetary resources would come through the 
budgetary process. I think over the next few months we will 
have a much better understanding of the resource gap there for 
us to factor into the budget appropriation process.
    Mr. Heinrich. Thank you, Mr. Gidner. Also, how would you 
characterize the quality of the Bureau of Indian Affairs data 
on Indian Trust lands? And what action has the BIA taken in 
recent years to improve data management, and to ensure that 
land records are accurate and up to date?
    Mr. Gidner. I would say right now our quality is pretty 
good. As you probably know, we have adopted over the past 
several years a land title and leasing system; it is called 
TAMS. It is a system of record for all of our real estate 
records. It is constantly being updated. I would say we are, it 
is not entirely current at any given moment because of the 
volume of their workload. The organizational assessment, well, 
we will be looking at that to see what we would need to keep 
that up to date and more current. But overall, I think the 
quality of the data is pretty good, and much better than it has 
ever been.
    Mr. Heinrich. One other quick question. The BIA has 
enforcement responsibility for leases, in addition to the 
approval process itself. Can you characterize how often the 
Bureau actually takes action to enforce leases that it has 
approved, and kind of give us an overview of that system?
    Mr. Gidner. I could not give you exact numbers, but we do 
have a pretty active program in the field to examine land for 
trespass, for example. And it is fairly standard. If we find 
people trespassing on land without a lease, they send letters 
telling them they have to cure that trespass, and working 
toward eviction. I am not talking about residential so much as 
the agriculture or grazing leases particularly. So we certainly 
have that process. If there is non-payment of leases, we send 
bills of collection and invoices. The process is generally 
taking place on a daily basis throughout the Bureau.
    Mr. Heinrich. OK. Thank you very much, Mr. Gidner.
    Thank you, Chairman.
    The Chairman. The gentlelady from California, Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. A couple of 
things that were talked about by Mr. Rahall. One of them 
specifically hit a chord when you mentioned the nine 
regulations for the leases. Can you enumerate what they are?
    Mr. Gidner. I am sorry, nine regulations for leases?
    Mrs. Napolitano. For leases.
    Mr. Gidner. I am not sure that I can. We have agricultural 
leases, lease regulations. I am not sure that I, that I can.
    Mrs. Napolitano. But there are nine?
    Mr. Gidner. I have not counted them. We have a whole 
regulatory system that involves.
    Mrs. Napolitano. Are they all separately done, differently 
administered? They follow one guideline? I know you mentioned 
just now that it is pretty much standard.
    Mr. Gidner. Well, I would say the different leasing 
regulations would be different based on what it is we are 
leasing. You know, grazing leases are different than business 
leasing.
    So nationwide, if it is grazing leases, it should be 
consistent nationwide. If it is business leases, it should be 
consistent nationwide. But there are obviously huge differences 
between those kind of leases. As I said, we do not have 
specific residential lease regulations.
    Mrs. Napolitano. OK. One other question that I think the 
author brought out was the ability to be able to do the work. 
You indicate you have sometimes an overload, if I heard you 
correctly.
    Mr. Gidner. Yes.
    Mrs. Napolitano. Currently, do you have enough, do you feel 
there are enough personnel to be able to do what you have? Do 
you have a backlog? How long is that backlog? Is the funding 
adequate, funding needs? What is the volume of the workload?
    Mr. Gidner. The volume of the workload for leasing is 
pretty high across the country. We process a lot of leases.
    Mrs. Napolitano. A lot being?
    Mr. Gidner. I don't----
    Mrs. Napolitano. Thousands? Hundreds?
    Mr. Gidner. Thousands. I don't know the number off the top 
of my head. Whether there is a backlog or not I guess is a 
matter of opinion. I would say there is. The time lag between--
I don't think we can process them as fast as we ought to be 
able to, but that would vary across the country.
    And it is partly seasonal and partly business. In Palm 
Springs you have complex businesses; in Standing Rock you have 
grazing leases. So the kind of work is different, and the 
volume of work and the time of work is different. So I can't 
say we have, it takes us X amount of time to do leases 
nationwide. You have to look at it on a much more local basis.
    Mrs. Napolitano. And home leases?
    Mr. Gidner. Home leases, I don't know if we have a backlog 
in that or not. I know we have, the process takes us longer 
than land that is not held in trust. And that I think is unfair 
to the, to the tribal members.
    Mrs. Napolitano. And the reason basically is what? That 
there is this backlog, that there is this length of time.
    Mr. Gidner. Length of time? Well, there are a number of 
reasons. I suspect staff resources are one of them, and this 
organizational assessment I hope will quantify, verify, 
quantify that, so we can address that through the 
appropriations process.
    But when we approve a lease, it is a Federal action. And 
that requires a NEPA review. Sometimes that can be a 
categorical exclusion, and fairly quick; sometimes it can't. 
But in any event, we have to do it. And that is something that 
a homeowner on non-Federal land just does not have to go 
through that step.
    And I think that statute, putting that authority with the 
tribes, may drastically reduce that step. That is something 
that we would have to work out exactly how that would work, and 
what the responsibility would be.
    Mrs. Napolitano. In dealing with Native American tribal 
water rights, there is a team that deals with each tribe. Is 
there that kind of an effort put into it? That there are 
several agencies working to be able to ensure that everything 
is processed properly?
    Mr. Gidner. No, not for leases generally. Leases would be 
done at our agency, or sometimes at our regional offices. There 
are, they would have to coordinate with our land title offices, 
which we have six of those nationwide that cover our 12 BIA 
regions, so not every region has a land title office. But that 
is really the only coordination that would be needed.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    The Chairman. The gentlelady from Wyoming, Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. And thank you, Mr. 
Gidner. It is very nice to see you here today.
    As you know, the HEARTH Act--and I am a co-sponsor, and I 
want to compliment the prime sponsor for putting this bill 
together--would allow tribes to execute their own leases, once 
the overarching tribal regulations have been approved by the 
Secretary.
    Current law requires the Secretary's review and approval 
process of proposed tribal regulations to occur within 120 days 
of submittal by the tribe. What assurances can you give that 
the Department can and will meet this deadline for any such 
regulation submitted after enactment of H.R. 2523?
    Mr. Gidner. I think the timeline is a difficult question. 
And Mr. Chairman, I believe you asked about the timeline for 
approving the Navajo Nation regs. I am informed that that took 
approximately six years. I don't know why it took that amount 
of time.
    We would have to develop a process to ensure that we were 
approving tribal regulations in a timely fashion. And that is 
one of the issues we would have is, do we have the staff to 
make that happen, how many tribes would be coming in, what our 
workload would be for that. We would not want to trade a 
backlog in processing leases for a backlog in approving 
regulations.
    Mrs. Lummis. Mr. Chairman, doesn't the Solicitor's Office 
do that, do those reviews of regulations?
    Mr. Gidner. Oh, they are certainly involved in that, yes.
    Mrs. Lummis. I understand that the BIA has twice now issued 
guidance to its regional offices directing them to process 
title status reports in no more than 30 days. And I also 
understand that the process currently takes from six months to 
two years to complete.
    Why all these delays?
    Mr. Gidner. I would say that is largely an issue of 
staffing. And I mentioned before you joined us, we are right 
now undertaking an organizational assessment of all the Trust 
programs to see if we can understand what gaps exist, and 
quantify them between the resources we have and the resources 
we need to provide these services in a more timely fashion.
    Mrs. Lummis. Mr. Chairman, can you staff up temporarily to 
do this kind of thing? I mean, if this bill passed, if you 
would know that for a period of time there are going to be a 
number of tribes that come in with regulations to take over 
this function. And I am assuming that a lot of them would use 
the Navajo model as their template for drafting their 
regulations.
    So I can't imagine that it would be that different from 
each other. Once the Navajo regs have been approved, you know, 
other tribes, it seems, would just adopt something very 
similar.
    Mr. Gidner. Well, you might be surprised. You may well be 
right. Sometimes tribes like to do things their own way, which 
is perfectly fine.
    We would have to explore how to staff that process, and 
whether we could use temporary staffing or put together teams. 
Those are some of the options we would have to look at to make 
those decisions in a timely manner.
    Mrs. Lummis. Thank you. And another question. Assuming a 
tribe doesn't submit regulations, and its tribal members are 
held to current law regarding lease approvals, what 
improvements can you make to reduce the waiting period in which 
a lease applicant can currently get approval?
    Mr. Gidner. Well, we are currently looking at how we can 
streamline the leasing process, and that actually has been more 
driven by oil and gas leasing. And we are doing this 
organizational assessment to look at staffing needs.
    As I mentioned, we do have a different process, say, for 
residential leases, that people getting a loan outside of 
Indian country, outside of Federal land, this would not have. 
We are bound, if we sign something it is a Federal action. We 
are bound by NEPA, and that is just a step that we have to go 
through that other people won't. And it is a disparity between 
people in Indian country trying to get leases, and people in 
our land trying to get a mortgage.
    Mrs. Lummis. Well, Mr. Chairman, you illustrate a great 
point. I mean, these are sovereign nations, and yet we are 
layering extra hoops to jump through on them constantly.
    And so again, I want to compliment Mr. Heinrich for putting 
this bill together, and I yield back.
    The Chairman. The gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Just to pick up a very 
important word which Mrs. Lummis used, sovereign nation. I 
think we have to recognize that. We are not talking to some 
corporation, or the Elks Club, or the Knights of Columbus, but 
we are talking to sovereign nations and their rights under 
their sovereignty. So I appreciate that you can't use that word 
too often, because that underpins everything that we do here 
when it comes to Indian nations, and I appreciate the use of 
that word.
    Let me ask Mr. Gidner, if H.R. 2523 is enacted, and several 
tribes seek the authority grants, how long do you think it 
would take to approve the application? And will this bill help 
streamline, ultimately, the process?
    Mr. Gidner. I am not sure how long it would take to approve 
the regulations. Hopefully not six years. And I am not sure if 
the bill puts a timeline for that or not. As I said, we would 
have to staff up to make sure that did not take so long.
    I think it would streamline the overall process. If we 
don't have to approve the leases themselves after we approve 
the regulations, I think that leasing process could happen much 
quicker.
    Mr. Kildee. I think that is very important to know, if you 
are dealing with the private sector--now, we are in the 
governmental sector here, two governments dealing with one 
another. In the private sector, lost time can be very costly. 
And it can be very costly for the tribe, also.
    So I hope that your underlying attitude in implementing 
this bill would be one of streamlining, so money would not be 
lost. I mean, whether it be Chrysler Corporation, General 
Motors Corporation, whatever, delay can be costly.
    So I think your attitude should be use this bill to 
streamline the process, so we can minimize the time between the 
application and the execution. Because time, literally, is 
money. So I hope you would take this bill, streamline it. I 
think it is a very important bill. In your hands, the execution 
would hopefully be streamlined.
    Thank you very much, Mr. Chairman.
    The Chairman. The gentleman from California, Mr. 
McClintock. Do you have a question?
    [No response.]
    The Chairman. Any other questions from Members? OK, Mr. 
Gidner, thank you for being with us today.
    Mr. Gidner. Thank you.
    The Chairman. I am going to call the second panel to come 
on up, and then recognize the gentleman from New Mexico to 
introduce his constituents.
    Panel number two will be composed of Governor Everett 
Chavez, the Pueblo of Santo Domingo, New Mexico; The Honorable 
Harvey Moses, Jr., Vice President of Affiliated Tribes of 
Northwest Indians, Portland, Oregon; Mr. Arvin Trujillo, the 
Executive Director, Division of Natural Resources, Navajo 
Nation, Window Rock, Arizona; Ms. Cheryl A. Parish, the 
Executive Director, Bay Mills Housing Authority, Brimley, 
Michigan. And she will be testifying on behalf of the National 
American Indian Housing Council.
    The gentleman from New Mexico.
    Mr. Heinrich. Thank you, Mr. Chairman. I am very pleased to 
welcome representatives of two of New Mexico's tribes this 
morning. Governor Everett Chavez is here to testify on behalf 
of the Pueblo of Santo Domingo in northern New Mexico, and 
welcome, Governor, to Washington. And I want to thank you very 
much for making it out here to join us this morning.
    And Mr. Arvin Trujillo, who is the Executive Director of 
the Division of Natural Resources of the Navajo Nation. Mr. 
Trujillo, I want to thank you very much for coming all the way 
here to talk about the Navajo Nation's experiences with leasing 
reform, and what we can learn from your experience. So thank 
you both very much.
    The Chairman. We welcome you to the Committee on Natural 
Resources this morning. We do have all of your prepared 
testimony, and it will be made part of the record as if 
actually read. You may proceed as you desire, in the order in 
which I introduced you. Governor.

 STATEMENT OF GOV. EVERETT CHAVEZ, ALL-INDIAN PUEBLO COUNCIL, 
              PUEBLO OF SANTO DOMINGO, NEW MEXICO

    Governor Chavez. Thank you, Member Hastings, distinguished 
and honorable members of the Committee. Thank you for inviting 
me to this testimony this morning for H.R. 2523. I would like 
to also thank Congressman Heinrich for the invitation and 
introducing this important legislation.
    As was mentioned, my name is Everett Chavez. I am the 
Governor for the Pueblo of Santo Domingo, a sovereign nation. I 
have never had any problem being heard, but anyway, I am from 
the Santo Domingo, and that is between Santa Fe and 
Albuquerque, New Mexico, and our population there is about 
5,000 strong. We are about 35 miles north.
    We certainly feel that owning a home is a fundamental part 
of the American dream. Santo Domingo Pueblo has long struggled 
to provide adequate housing for our tribal members. We are 
currently about 35 years behind in housing.
    Our Pueblo people face barriers constantly trying to 
attract private investments and banks that are normally 
hesitant to provide mortgage financing for community members 
because of the long delays that are involved once a lease 
request is made. Typically this runs between six months to a 
couple of years.
    And so this lengthy process in this bill I think will 
provide us the means for us to be able to move forward with our 
housing shortage that we have. If you look at the size of 
5,000, approximately 1,000 homes should be present to 
adequately house our community members. We now have a count of 
about 515 homes on the reservation, which leaves a huge number 
of 400-plus-some homes that we need to come up with.
    And unfortunately, HUD has been the primary answer for much 
of our housing needs. And with the challenges that we have with 
regard to funding, it has been quite difficult. If we had to 
wait for HUD to come through to make up the 400 homes, it would 
take a considerable amount of time.
    And so this bill that is being presented really makes 
available options for our tribal members that are ready to go 
forth and build their own homes. And certainly the ability for 
the tribe to enact its own ordinances that allows them to 
secure loans in a much more timely manner certainly is a 
desired outcome that we are looking forward to in this bill.
    I know that similarly the other Pueblos, Isleta and Acoma, 
are under the same kind of constraints, the same kinds of 
difficulties that relate to leases. And I know that some of the 
Pueblos in New Mexico have been looking at other ways that we 
can be able to generate the kind of home housing activities in 
the respect of Pueblos.
    I know that many of us are certainly aware that the process 
through the Bureau is quite cumbersome. We have had to deal 
with it and live with it. But if there is an opportunity for us 
to amend these things so that tribes can be more sovereign in 
being able to act, enacting the ordinances that will guide 
housing activities, and including leasing of the lands that 
must be secured for houses.
    This does not necessarily relieve the Federal government of 
its trust responsibility. We certainly will continue to hold 
them to that. But I think in terms of opportunity, I believe 
the HEARTH Act--again, I want to commend Congressman Heinrich 
for introducing this, and certainly we are looking forward to 
the successful passage of this bill.
    Thank you.
    [The prepared statement of Governor Chavez follows:]

     Statement of Governor Everett Chavez, Pueblo of Santo Domingo

    Chairman Rahall, Ranking Member Hastings, distinguished members of 
the committee, thank you for inviting me here this morning to testify 
in support of H.R. 2523. I would also like to thank Representative 
Martin Heinrich of my home state of New Mexico for introducing this 
important legislation. My name is Everett Chavez, and I am honored to 
serve as Governor of the Pueblo of Santo Domingo. Santo Domingo Pueblo 
is a community of more than 5,000, located just 35 miles north of 
Albuquerque, New Mexico.
    Owning a home is a fundamental part of the American Dream. Santo 
Domingo Pueblo has long struggled to provide adequate housing to our 
tribal members. Presently, we are thirty-five years behind in our 
housing; however, we've made progress in recent years thanks to federal 
policies like NAHASDA (the Native American Housing Assistance and Self 
Determination Act) and the HUD 184 Program. The Pueblo we still faces 
barriers in attracting private investment--banks are still hesitant to 
grant mortgages for houses on our reservation. One reason for that is 
the long process of receiving approval for long-term leases and 
leasehold mortgages from the Bureau of Indian Affairs. Once a tribe 
approves a lease and it is submitted to BIA for federal approval, the 
wait time is typically between six months and two years. Once a lease 
is approved, the leasehold mortgage goes through the same federal 
approval process, taking another two to six months. Banks are simply 
unwilling to wait this long to close a loan or finalize a sale. As a 
result, many of Santo Domingo's families choose to move to neighboring 
cities like Albuquerque because it is the only way they can 
realistically buy a home.
    At Isleta Pueblo, the typical wait time for approval of a lease is 
six months and another two months for approval of the leasehold 
mortgage. At Laguna Pueblo, even though the BIA office is on the 
Pueblo, BIA delays in approving residential leases is over one year. It 
is not uncommon for the housing entity to have to submit a lease more 
than once to BIA as a result of misplacement of paperwork within BIA. 
In Ohkay Owingeh and Nambe Pueblo, the housing entities have waited 
longer than six months, and in Nambe's case, three years to obtain an 
approved residential lease.
    At Acoma Pueblo, no home mortgaging occurs due to the traditional 
leaders' belief that the federal government should not set the rules 
for residential leasing by tribal members on tribal lands because those 
decisions are an internal matter. This decision has resulted in the 
middle class moving away from Acoma to buy homes in Albuquerque. In 
fact, even many Acoma tribal leaders who desperately want to live at 
the pueblo, where their families have lived for generations, choose to 
move to Albuquerque because they want the benefits of homeownership.
    Most tribes, after realizing that they have to go through the BIA 
approval process twice to close one loan, are dissuaded from 
encouraging home mortgaging.
    The federal government has important trust responsibilities to 
ensure that tribal land is protected and used for the benefit of 
tribes. Unfortunately, the current BIA leasing process is failing in 
that responsibility. The HEARTH Act would allow tribes like mine to 
make our own decisions about how our land is used. Within regulations 
crafted by our tribal government and approved by the Secretary of the 
Interior, the pueblo could complete the leasing process much more 
quickly than BIA can, allowing greater investment in our community and 
allowing more Santo Domingo families to become homeowners.
    The current leasing system is broken. This bill will allow my 
pueblo, and others like us, to build leasing systems that work for our 
people. On behalf of Santo Domingo Pueblo, I ask your support of H.R. 
2523.
    Thank you again for holding this hearing today, and I would be 
happy to answer any questions.
                                 ______
                                 
    The Chairman. Thank you, Governor. Vice President Moses.

STATEMENT OF HON. HARVEY MOSES, JR., VICE PRESIDENT, AFFILIATED 
         TRIBES OF NORTHWEST INDIANS, PORTLAND, OREGON

    Mr. Moses. Good morning, Chairman Rahall and members of the 
Committee. My name is Harvey Moses, Jr. I am Executive Vice 
President of Affiliated Tribes of Northwest Indians, comprised 
of 57 tribes in the Pacific Northwest, including Washington, 
Idaho, Oregon, Alaska, Montana, Nevada, and some in California.
    Affiliated Tribes was established in 1953, and is one of 
the frontrunners in trust reform for Indian country. And I 
believe we are one of the leaders, we are the leader in Indian 
country in that aspect.
    I am also a councilmember from the Confederated Tribes of 
the Colville Indian Reservation. My duties there include 
chairman of our management and budget committee and chairman of 
our culture committee.
    ATNI's views of H.R. 2523, ``Helping Expedite and Advance 
Responsible Tribal Homeownership Act,'' or HEARTH Act, the 
Committee has my prepared statement. And I would like to 
briefly highlight three points.
    One, ATNI supports the HEARTH Act because it supports 
voluntary mechanisms to enable tribal, Indian tribes to assume 
greater controls over Indian Trust lands. It allows tribes to 
avoid the lengthy BIA approval process for leasing of our Trust 
lands. It encourages economic development and self-
determination on our Trust lands.
    Two, ATNI strongly supports the requirements that the BIA 
prepare a report on tribes that have contracted or compacted 
the LTRO function, Land Title Records Office. The Colville 
Tribe is one of the six tribes that has done this. Although 
contracting LTRO has been largely successful in expediting 
preparation of the title status reports at the Colville Tribes, 
staffing and funding challenges that persist constantly, we 
have one individual who performs our leasing and this LTRO 
function. And it slows things down quite a bit.
    A report to Congress would develop this record and provide 
a justification of why additional resources are needed for the 
LTRO function.
    And finally, ATNI encourages the Committee to consider 
other trust-related initiatives in the coming year, including 
comprehensive trust reform. Several tribes and tribal 
organizations, including ATNI and NTIA have done significant 
work in this area. ATNI appreciates the Committee's interest in 
the issue, and stands ready to assist in developing future 
trust-related initiatives.
    This concludes my statement. I would be pleased to answer 
any questions that you may have. Thank you.
    [The prepared statement of Mr. Moses follows:]

 Statement of The Honorable Harvey Moses, Jr., Second Vice-President, 
                 Affiliated Tribes of Northwest Indians

    Good morning Chairman Rahall, Ranking Member Hastings, and 
distinguished members of the Committee. My name is Harvey Moses, Jr., 
and I am the Second Vice-President for the Affiliated Tribes of 
Northwest Indians (``ATNI'') and a councilmember for Confederated 
Tribes of the Colville Reservation. Today, I am pleased to provide 
ATNI's views on H.R. 2523, the ``Helping Expedite and Advance 
Responsible Tribal Homeownership Act,'' or the ``HEARTH Act.''
    ATNI is gratified that the Committee is considering initiatives 
such as the HEARTH Act that would provide Indian tribes authority to 
assume more control over management of their trust resources on a 
voluntary basis. Because of the potential for this expanded authority 
to immediately benefit Indian tribes with the requisite capacity and 
the fact that Indian tribes would be able to decide for themselves 
whether or not to take advantage of this expanded authority, ATNI 
supports the legislation.
Background on ATNI
    Founded in 1953, ATNI represents 57 tribal governments from Oregon, 
Idaho, Washington, Montana, Alaska, California and Nevada. As the 
Committee may be aware, ATNI and its member tribes in the Pacific 
Northwest have been outspoken supporters of efforts to reform the 
manner in which the federal government administers trust resources. 
ATNI has established a trust reform workgroup of tribal leaders and 
technical staff to comment and provide recommendations on initiatives 
that affect the trust relationship, including initiatives to streamline 
federal approvals. ATNI's support for these initiatives is grounded in 
its commitment to maintaining the integrity of the federal trust 
responsibility that is based upon the historical cession of millions of 
acres of ancestral lands by the tribes. Against this backdrop, ATNI 
appreciates the opportunity to provide its views on the HEARTH Act, 
which is one of the first bills considered by this Committee in this 
Congress that would provide Indian tribes a more direct role in 
managing trust resources.

Current Requirement for Secretarial Approval of Leases of Indian Trust 
        Land
    The Act of August 9, 1955 (``1955 Act''), codified at 25 U.S.C. 
Sec. 415, allows the Secretary of the Interior (``Secretary'') to 
approve leases of Indian trust land for up to 25 years, with one 
additional extension of up to 25 years. Since the enactment of the 1955 
Act, a number of Indian tribes have successfully secured amendments to 
the 1955 Act that authorizes the Secretary to approve leases of up to 
99 years for those particular tribes. The 1955 Act and its implementing 
regulations make clear that leases of Indian trust land that are not 
approved by the Secretary are invalid.
    In the 106th Congress, Congress amended the 1955 Act by enacting 
the Navajo Nation Trust Land Leasing Act of 2000 (``Navajo Leasing 
Act''). The Navajo Leasing Act added a new subsection (e) that allows 
the Navajo Nation to promulgate its own leasing regulations that, once 
approved by the Secretary, allows the Navajo Nation to enter into 
leases of tribal trust land without the requirement of Secretarial 
approval. The Navajo Leasing Act allows the Navajo Nation to enter into 
business or agricultural leases for terms of up to 25 years with an 
option to renew for up to two additional terms up to 25 years. The 
Navajo Leasing Act allows for the Navajo Nation to enter into leases 
for public, religious, educational, recreational, or residential 
purposes for a term of up to 75 years. The Navajo Leasing Act does not 
apply to leases for the exploration, development, or extraction of any 
mineral resources.
    The Navajo Leasing Act limits the liability of the United States 
for losses sustained by any party to a lease approved pursuant to the 
Navajo Nation's leasing regulations. It also provides that interested 
parties may, after exhausting tribal court remedies, petition the 
Secretary to review the Navajo Nation's compliance with its tribal 
leasing regulations.
    On its face, the Navajo Leasing Act is voluntary and, within the 
parameters of the act itself, the scope and term of the tribal 
regulations that implement the act is determined by the Navajo Nation. 
Presumably, these tribal regulations are not set in stone and can be 
amended by the Navajo Nation as the need arises.

The HEARTH Act
    Section 2 of the HEARTH Act would amend the Navajo Leasing Act to 
expand its potential application to all other Indian tribes. Section 3 
of the HEARTH Act would require the Bureau of Indian Affairs (``BIA'') 
to prepare and submit to the House and Senate committees of 
jurisdiction a report on the history and experience of Indian tribes 
that have chosen to assume responsibility for operation of Land Title 
Record Office (``LTRO'') functions.

ATNI Supports Voluntary Mechanisms to Enable Indian Tribes to Assume 
        Greater Control over Trust Assets
    The ability of Indian tribes to enter into leases of Indian trust 
lands in an expeditious manner is a key component of enhancing economic 
development in Indian country. One of Congress's stated purposes in 
enacting the Navajo Leasing Act was to ``revitalize the distressed 
Navajo Reservation by promoting political self-determination, and 
encouraging economic self-sufficiency, including economic development 
that increases productivity and the standard of living for members of 
the Navajo Nation.'' This statement applies with equal force to many, 
if not most, Indian tribes throughout the United States. Expanding the 
already existing mechanism in the Navajo Leasing Act to other Indian 
tribes would provide those tribes that so desire an alternative to the 
current BIA approval process.
    ATNI's support for expanding the Navajo Leasing Act to other Indian 
tribes is conditioned in the voluntarily nature of tribal participation 
and on the tribes' own ability, present in the existing law, to shape 
the contents of the leasing regulations. ATNI recognizes that the 
limitation of the United States' liability for losses by parties to 
leases executed under tribal regulations may be an issue for some 
Indian tribes. Similarly, other tribes may have special circumstances 
that do not make tribal approval of leases feasible or desirable.
    Because the HEARTH Act is voluntary, ATNI supports the bill because 
we believe that individual Indian tribes are in the best position to 
determine whether these considerations outweigh the potential benefits 
of the act. The flexibility of the tribal regulations is another 
consideration. For example, a tribe that may wish to avail itself of 
the HEARTH Act's expanded authority only for certain leases or projects 
could draft its tribal regulations accordingly. Should the tribe at a 
later date desire to expand the scope to include other leases, it could 
do so by amending its regulations.
    If the Committee were considering an entirely new leasing regime 
for Indian trust lands, ATNI and likely other tribal organizations 
might have different ideas on how this might be accomplished. Because 
the HEARTH Act, however, is simply an extension of already existing law 
and at least some tribes could benefit immediately by the expanded 
authority it allows, ATNI supports the Act.
Tribal Assumption of LTRO Functions
    ATNI strongly supports the requirement in Section 2 of the HEARTH 
Act that the BIA prepare and submit to the congressional committees of 
jurisdiction a report on the history and experience of Indian tribes 
that have chosen to assume responsibility for operation of LTRO 
functions.
    As the Committee is aware, LTROs are responsible for preparing 
Title Status Reports (``TSRs''). A TSR is a report that provides a 
legal description of a parcel of Indian land and current ownership 
information such as easements, mortgages or other encumbrances. For 
most lenders, a BIA-certified TSR is a prerequisite to begin processing 
an application for a home loan.
    ATNI understands that, to date, six Indian tribes nationwide have 
contracted or compacted the LTRO function from the BIA. The Colville 
Confederated Tribes is one of those tribes. Based on the Colville 
Tribes' experience, the reporting requirement in Section 3 of the 
HEARTH Act would provide a valuable record for the Department, the 
Congress, and for tribes that are considering contracting or compacting 
LTRO functions.
    Before the Colville Tribes contracted LTRO functions, obtaining a 
TSR took from 60 to 90 days, sometimes longer, and required the BIA 
Regional Office staff to manually search through piles of recorded 
documents. Now that the Colville Tribe performs these services locally 
and has access to its own records, the Tribe's staff can generate, on 
an expedited basis, a TSR in one business day. When adequately staffed, 
the Colville Tribes' LTRO can complete most TSRs within five business 
days.
    Although this increased control has, at least in the Colville 
Tribes' case, led to increased flexibility for generating TSRs by 
moving control of the process from the Regional Office level to the 
tribal level, challenges remain. Like many BIA programs, lack of 
funding hampers the ability of tribal staff to fully utilize this 
newfound authority.
    Similarly, tribes that wish to contract or compact LTRO functions 
from the BIA may face significant obstacles on the front end if the 
BIA's administration of the program has not gone smoothly. In the 
Colville Tribes' case, when our local agency staff visited the BIA 
Regional LTRO to assess the work that would be required to assume 
control of the program, they observed piles of recorded documents that 
had yet to be inputted into the applicable databases. The staff also 
discovered that the history or chain of title on the majority of the 
Indian lands within the Colville Reservation had not been updated for 
nearly eight years. This translated into a significant upfront 
expenditure of staff time to prepare the LTRO program for assumption by 
the Tribe. ATNI suspects that at least some of the five other tribes 
that have assumed control of LTRO functions have had similar 
experiences.
    A comprehensive BIA report to Congress that fully explains the 
benefits and challenges for tribes in contracting or compacting LTRO 
would shed additional light on these issues. ATNI hopes that such a 
report would lead to administrative reform to make this process easier 
for tribes that wish to do so in the future and may lay the foundation 
for additional funding for LTRO activities in future fiscal years.

Future Initiatives Related to Expediting Administrative Approvals and 
        Trust Resource Management
    ATNI believes that the HEARTH Act will provide a ``turn key'' 
approach to allow those Indian tribes that wish to do so the 
opportunity to expedite the process of entering into leases of tribal 
trust land utilizing the existing Navajo Leasing Act framework. For 
those Indian tribes that have the infrastructure, capability, and 
desire to undertake their own lease approvals, they should be 
encouraged, not hindered.
    Going forward, ATNI hopes that this will not be the last 
opportunity for the Committee to explore issues related to expediting 
administrative approvals and the administration of trust assets. ATNI 
believes strongly that a comprehensive approach to trust management 
should be considered. ATNI, NCAI, and other tribal organizations spent 
significant time and energy in working with both this Committee and the 
Senate Committee on Indian Affairs to develop Title III of the Indian 
Trust Reform Act of 2005 (introduced as H.R. 4322 in the 109th 
Congress). Title III approached these issues from a standpoint of 
tribes and the federal government working together to develop 
comprehensive trust management plans to accommodate a range of tribal 
needs on a resource-by-resource level.
    Both ATNI and NCAI recently enacted resolutions at their annual 
conferences reaffirming their desire for the reintroduction of reform 
legislation similar to H.R. 4322. Looking ahead to 2010 and beyond, we 
hope that the Committee will consider these views as it considers other 
bills and initiatives relating to administration of Indian trust 
assets.
    ATNI greatly appreciates the opportunity to testify at this hearing 
and looks forward to assisting the Committee in any way it can in 
exploring and developing these issues. At this time, I would be pleased 
to answer any questions that the Committee might have.
                                 ______
                                 
    The Chairman. Thank you. Mr. Trujillo.

 STATEMENT OF ARVIN TRUJILLO, EXECUTIVE DIRECTOR, DIVISION OF 
     NATURAL RESOURCES, NAVAJO NATION, WINDOW ROCK, ARIZONA

    Mr. Trujillo. Good morning, Chairman Rahall, Ranking Member 
Hastings, and members of the Committee on Natural Resources. My 
name is Arvin Trujillo, and I am the Executive Director for the 
Navajo Division of Natural Resources.
    Mr. Chairman, President Shirley also sends his greetings to 
you and your Committee. I also want to thank you for the 
opportunity to come before you today to testify concerning H.R. 
2523, the HEARTH Act.
    This legislation is similar to the Navajo Leasing Act of 
2000, that gave the Navajo Nation and the Department of the 
Interior the authorization to develop regulations to take the 
Federal government out of the surface leasing process on Navajo 
land.
    As an initial matter, the Navajo Nation supports the 
passage of H.R. 2523 as a major step toward tribal sovereignty 
for all the native nations. However, based on experience 
implementing the Navajo Nation Leasing Act, the Navajo Nation 
has several recommendations that would help realize the full 
implementation of both the Navajo Leasing Act and the HEARTH 
Act.
    The Navajo Nation is the first tribal nation to be 
authorized to fund business and residential leases without 
prior approval of the Bureau of Indian Affairs, the 
corresponding Tribal Self-Determination Contract or a compact 
with the Department of the Interior.
    In July of 2006, President Shirley said no longer will the 
Navajo Nation be required to seek final approval from the 
Bureau of Indian Affairs to develop its own lands, nor will it 
be required to wait years for the Federal government to conduct 
appraisals.
    While this was a major step forward for the tribal 
sovereignty, the Navajo Nation discovered many roadblocks in 
implementing the Navajo Leasing Act.
    First, the implementation of the Act spans three 
administrations, each with differing views of the rights and 
responsibilities declared in the purpose of the Act. A 
streamlined process for guiding tribes through this Federal 
bureaucracy is essential to the successful implementation of 
the Act.
    Second, the cost of implementation has been fully borne by 
the Navajo Nation. The Congressional Budget Office has 
inexplicably determined that the Navajo Nation, when assuming 
several separate functions, would not require money for direct 
services, data cleanup, or revising tribal procedures, the Act 
perceived the CBO ruling has been called into question by later 
Federal reports, statutes, and funding formulas for self-
determination contracts performing similar work. And the Office 
of Special Trustee, Bureau of Indian Affairs budget 
specifications for current Federal trust realty records and IT 
Department budgets.
    While accounting for approximately one third of all Federal 
Indian Trust land, the Navajo Nation has been chronically 
underserved since 2000 in relation to other Federal tribes. 
Billions have been transmitted to the Office of Special Trustee 
during the same period. The As-Is Study produced by the Office 
of Special Trustee estimates tens of thousands of Navajo 
business site recorded leases in 2001. However, no funding 
formula for the portion of the tax the Navajo Nation assumed 
were awarded for the inherited historical DOI backlogs of 
pending transactions or data cleanup conveyed to the Navajo 
Nation.
    To properly implement the HEARTH Act and the Navajo Leasing 
Act, and for other tribes to implement the HEARTH Act, the 
Congress needs to approve provisions that allow for proper 
funding for tribes to assume this responsibility.
    Third, the passage of the Navajo Leasing Act assumed that 
there were existing capacity surveys available to identify land 
plots for leases. The Bureau of Land Management has not lived 
up to its responsibility to provide capacity surveys for the 
Navajo Nation, even though the Nation had funded 50 percent of 
the survey team. The existing surveys used by BLM and BIA were 
conducted in the mid-1900s, and are tied to points such as 
rocks, trees, and natural landmarks. These existing surveys are 
insufficient to properly assess and approve loan applications.
    The Navajo Nation currently only has 25 percent of our land 
confirmed by an instrument survey for a public lands survey 
system. To address this problem, in 2004 the Navajo Nation 
began developing a land title status search capacity for the 
Nation. After assessing our needs and existing leasing 
procedures, the Navajo Nation Land Title Records Office soon 
emerged as the most feasible course of action.
    The Navajo Nation developed the Navajo Land Title Data 
System, using our own funds. In 2007, the initial design for a 
title plan for the Navajo Nation was completed. The NLTDS meets 
the American National Standards Institute and the International 
Standards Organization Document Control requirements. These 
voluntary standards are approved by Federal regulation to meet 
requirements for privacy, document control, digital records, 
and tribal trust documentation.
    The Navajo Nation, through the Division of Natural 
Resources, has moved forward implementing this data system 
within the Navajo Land Department to support records of 
activities or document control required by regulations.
    The system is designed to expand services to other Navajo 
divisions and departments, including the Navajo Government. The 
system is used to establish these processes. However, there is 
a costly amount, because we are still bearing that cost to 
implement this through the Navajo Leasing Act.
    Finally, the Navajo Leasing Act, yes, is a major step 
forward, and we are looking at significant hurdles. Once the 
Navajo completes the survey work and piles of documentation 
necessary for a lease packet, we still have to submit the lease 
to the Navajo Regional BIA Office for conveyance. This process 
takes from two months to a year. The Navajo Nation Leasing Act 
has so far only transferred the cost and burdens of compiling 
and approving the lease information, without benefits of 
allowing final conveyance. Both the HEARTH Act and Navajo 
Leasing Act must improve a real commitment to transfer complete 
responsibility to the tribe, not just the cost.
    So again, this will help enhance some of the areas. There 
are other areas that I am willing to answer questions to. But 
in closing, I would like to thank Representative Heinrich for 
his efforts with the HEARTH Act.
    Mr. Chairman.
    [The prepared statement of Mr. Trujillo follows:]

           Statement of Arvin Trujillo, Executive Director, 
              Navajo Nation Division of Natural Resources

    Good morning Chairman Rahall, Ranking Member Hastings, and members 
of the Committee on Natural Resources, thank you for the opportunity to 
come before you today to testify concerning H.R. 2523, the Helping 
Expedite and Advance Responsible Tribal Homeownership or HEARTH Act. 
This legislation is similar to the Navajo Nation Leasing Act of 2000 
that gave the Navajo Nation and the Department of Interior the 
authorization to develop regulations to take the federal government out 
of the surface leasing process on the Navajoland. As an initial matter, 
the Navajo Nation supports the passage of H.R. 2353 as a major step 
towards tribal sovereignty for all the Native Nations. However, based 
on our experience implementing the Navajo Nation Leasing Act, the 
Navajo Nation has several recommendations that would help realize the 
full implementation of both the Navajo Leasing Act and the HEARTH Act.
    The Navajo Nation is the first tribal nation to be authorized to 
sign business and residential leases without prior approval of the 
Bureau of Indian Affairs, a corresponding Tribal Self-determination 
contract, or a compact with the Department of the Interior. In July of 
2006, President Shirley said, ``No longer will the Navajo Nation be 
required to seek final approval from the Bureau of Indian Affairs to 
develop its own lands, nor will it be required to wait years for the 
federal government to conduct appraisals.'' While this was a major step 
forward for tribal sovereignty, the Navajo Nation discovered many 
roadblocks to implementing the Navajo Leasing Act. First, the 
implementation of the Act spans three administrations, each with 
differing views of the rights and responsibilities declared in the 
purposes of the Act. A streamlined process for guiding tribes through 
the federal bureaucracy is essential to the successful implementation 
of the Act.
    Second, the cost of implementation has been fully born by the 
Navajo Nation. The Congressional Budget Office (CBO) has inexplicably 
determined that the Navajo Nation, when assuming federal trust 
functions, would not require money for direct services, data clean up, 
or revising tribal procedures. The accuracy of the CBO ruling has been 
called into question by later federal reports, statutes and funding 
formulas for self-determination contracts performing similar work, and 
the Office of Special Trustee/Bureau of Indian Affairs budget 
justifications for current federal Trust, Realty, Records and IT 
departments budgets. While accounting for approximately one-third of 
all federal Indian trust land, the Navajo Nation has been chronically 
underserved since 2000 in relation to other federal tribes. Billions 
have been transmitted to the Office of Special Trustee during the same 
period. The ``AS-IS'' study produced for the Office of Special Trustee 
estimates ``tens of thousands'' of Navajo Business-site recorded leases 
lapsed in 2001. However, no funding formulas for the portion of the 
task the Navajo Nation assumed were awarded for the inherited historic 
DOI backlogs of pending transactions or data cleanup conveyed to the 
Navajo Nation. To properly implement the Navajo Nation Leasing Act, and 
for other tribes to implement the HEARTH act, the Congress needs to 
include provisions that allow for proper funding for tribes to assume 
this responsibility.
    Third, the passage of the Navajo Nation Leasing Act assumed that 
there were existing cadastral surveys required to identify land plots 
for leases. The Bureau of Land Management (BLM) has not lived up to its 
responsibility to provide cadastral surveys for the Navajo Nation even 
though the Navajo Nation has funded fifty percent of the survey team. 
The existing surveys used by BLM and BIA were conducted in the mid 
1900's, and tied to points such as rocks and trees. These exiting 
surveys were insufficient to properly assess and approve loan 
applications. The Navajo Nation currently only has twenty-five percent 
(25%) of our land confirmed by an instrument survey for a Public Land 
Survey system.
    To address this problem, in 2004, the Navajo Nation began 
developing a Land Title Status search capacity for the Navajo Nation. 
After assessing our needs and existing leasing procedures, a Navajo 
Nation Land Title Records Office soon emerged as the most feasible 
course. The Navajo Nation developed the Navajo Land Title Data System 
(NLTDS) using our own funds. In 2007, the initial design for a title 
plant for the Navajo Nation was completed. The NLTDS meets the American 
National Standard Institute (ANSI) and International Standards 
Organization (ISO) document control requirements. These voluntary 
standards are approved by federal regulation to meet requirements for: 
privacy, document control, digital records and tribal trust documents. 
The Navajo Nation, Division of Natural Resources (DNR) has moved 
forward with implementation of a Navajo Land Title Data System Plan 
within the Navajo Land Department to support the ``Records of 
Activities'' or document control required by the regulation. The system 
is designed to expand service to other Divisions and Departments, 
including local Navajo units of government. The NLTDS is a system that 
can be used by other tribes to establish and process leases. However, 
the development of this system requires a significant cost outlay on 
the part of the Navajo Nation that we have so far born ourselves but is 
essential to implementing the Navajo Nation Leasing Act. Funding from 
the federal government is essential to allow the Navajo Nation to 
complete development of this system. To properly implement both acts, 
Congress will either have to provide money to tribes to develop their 
own systems, or encourage the adoption of a system similar to what we 
have developed.
    Finally, while the Navajo Nation Leasing Act has been a major step 
forward for the Navajo Nation, we are still faced with a significant 
hurdle from the Bureau of Indian Affairs. Once the Navajo Nation 
completes the survey work and compiles the documentation necessary for 
a lease packet we still have to submit the lease to the Navajo Regional 
BIA office for conveyance. This process can take from two months to a 
year. The Navajo Nation Leasing Act has so far only transferred the 
costs and burdens of compiling and approving the lease information 
without the benefits of allowing final conveyance. Both the HEARTH Act 
and Navajo Nation Leasing Acts must involve a real commitment to 
transfer complete responsibility to the tribes and not just the costs.
    Tribal sovereignty is an essential component of the right ability 
of the Native nations to govern ourselves. Both the Navajo Nation 
Leasing Act and the HEARTH Act represent a significant step forward in 
providing greater self-determination to tribes. The Committee and 
Congressman Heinrich should be commended for moving forward to provide 
us with greater sovereignty. However, in order to implement the Acts 
the federal government must provide funding for the costs associated 
with transferring the responsibility to tribes, and the transfer of 
responsibility must be complete to allow tribes to convey the leases.
    Thank you.
                                 ______
                                 
    The Chairman. Ms. Parish.

 STATEMENT OF CHERYL A. PARISH, EXECUTIVE DIRECTOR, BAY MILLS 
              HOUSING AUTHORITY, BRIMLEY, MICHIGAN

    Ms. Parish. Good morning, Chairman Rahall, Ranking Member 
Hastings, Congressman Heinrich, The Honorable Congressman 
Kildee, and members of the Committee. My name is Cheryl Parish; 
I am from the Bay Mills Tribe of Chippewa Indians in upper 
Michigan.
    I appear before you in dual roles. I have served as the 
Executive Director of my Housing Authority for almost 20 years. 
I also serve as the Vice Chair of the National American Indian 
Housing Council. Thank you for inviting me to testify on the 
HEARTH Act.
    Before I discuss the provisions of H.R. 2523, please allow 
me to take you back nearly two decades, when Indian tribes, 
tribal housing authorities, and others came together to 
articulate a new vision for housing and housing-related 
community development that was rooted in the firm foundation of 
Indian self-determination. These efforts culminated into what 
became the Native American Housing Assistance for Self-
Determination Act of 1996.
    The primary objective of NAHASDA is to consolidated 
standard Federal housing programs into one block grant, to 
promote affordable and safe housing in native communities.
    With the delivery of housing, it has improved, and it has 
increased basically since 1936. But we have many, many 
challenges that remain, including working with the Tribal Trust 
lands, which are held in a common, in common, and cannot be 
collateralized. The lack of private capital, dire economic 
conditions, these factors require vigorous Federal investment 
in housing and community development. And without a doubt, 
NAHASDA is the single biggest source of housing capital for 
Indian people.
    Most Indian tribal land is held in trust or restricted 
status by the United States for the beneficial ownership of 
Indian tribes or individual Indians. Trust lands may not be 
sold, but may be leased for a variety of purposes, under 
Federal law.
    The Indian Long-Term Leasing Act of 1955 requires the 
approval of the Secretary of the Interior for certain types of 
leases on Indian Trust and restricted Indian lands. Any lease 
that is not approved by the Secretary is invalid.
    Timely processing of these lease documents is critical, not 
only for housing, but also for our Federal Loan Guarantee 
Program. One program, the Indian Home Loan Guarantee Program, 
also known as Section 184, addresses the lack of mortgage 
lending on our reservations in our native communities. They 
offer mortgage financing to eligible Native American 
individuals, families, housing authorities, tribally designated 
housing entities.
    The 184 program through HUD guarantees these loans made by 
private sector lenders. This program requires the borrower to 
have a valid lease-hold subject to the approval of the 
Secretary. Upon default, the structure and the lease hold 
interest are subject to foreclosure.
    The requirement of the Secretarial approval in this 
instance is time-consuming, and is the contributing factor to 
low homeownership rates in native communities.
    Current law authorizes leases up to 25 years, with an 
option for a 25-year renewal, for public, religious, 
educational, recreational, residential, or business purposes. 
NAHASDA increases lease terms for housing development and 
residential purposes for 50 years, but keeps the requirement 
for Secretarial approval.
    The Secretary, acting through the Bureau of Indian Affairs, 
administers the land leasing program, which can become lengthy, 
taking months and sometimes years, hindering housing, 
infrastructure, and related economic development on Trust 
lands. Because of these delays and the desire by individual 
Indian tribes for more authority and tribal control of the 
leasing of their own lands, 45 Indian tribes have sought 
release from the 1955 Act, petitioning Congress specific, 
tribe-by-tribe legislation.
    Most recently, one tribe, the Navajo Nation, sought to 
liberalize the 1955 Act for its own Trust lands. In 2000, 
Congress responded favorably by enacting the law to authorize 
the Navajo Nation to enter into these lease agreements, and 
renewals of the leases without the Secretary's approval. The 
Navajo Nation was required to develop its own tribal leasing 
regulations before instituting its land-leasing regime, which 
was approved by the Secretary in July of 2006.
    In 2009, Mr. Heinrich introduced the HEARTH Act, which will 
offer willing Indian tribes the authority to enact their own 
tribal leasing regulations, and to negotiate and enter into 
certain leases without the approval of the Secretary.
    It is crucial that any such proposal be entirely optional 
to Indian tribes, and to determine whether they wish to 
participate in such an initiative. The HEARTH Act would also 
require the BIA to prepare and submit to the Congress a report 
detailing the history and the experience of the Indian tribes 
that have chosen to assume the responsibility for operating the 
Indian Land Titles and Records Office functions from the BIA.
    The National American Indian Housing Council supports 
efforts like the HEARTH Act because they respect tribal 
decision-making. It expedites what can often be a lengthy 
Federal process, and will serve to improve the delivery of 
Federal housing assistance, and expand economic opportunities 
to Indian country.
    On behalf of NIHC and its membership, I am here today to 
strongly support the Heinrich bill.
    Thank you, and if you have any questions, I would be happy 
to answer them. And Mr. Chairman, we also have three studies 
that we would like to submit, if possible, that were not 
available electronically, as requested by the Committee. Would 
you allow us to submit those?
    Thank you very much.
    [The prepared statement of Ms. Parish follows:]

   Statement of Cheryl Parish, Executive Director, Bay Mills Housing 
  Authority, on Behalf of the National American Indian Housing Council

Introduction
    Good Morning, Chairman Rahall, Ranking Member Hastings and Members 
of the Committee. My name is Cheryl Parish and I am the Executive 
Director of the Bay Mills Housing Authority in Brimley, Michigan. I am 
a member of the Bay Mills Tribe of Chippewa Indians in Michigan and I 
also serve as the Vice Chair of the National American Indian Housing 
Council (``NAIHC''). Thank you for inviting me to testify today to 
present our views on the ``Helping Expedite and Advance Responsible 
Tribal Homeownership Act'' or the HEARTH bill. This legislation is 
another important step in respecting tribal sovereignty and encouraging 
the development of tribal economies.
The National American Indian Housing Council
    The NAIHC was founded in 1974 to support and advocate for tribes 
and tribally designated housing entities (``TDHEs''). For more than 35 
years, the NAIHC has assisted tribes achieve their primary goal of 
providing housing and community development for American Indians, 
Alaska Natives and native Hawaiians. The NAIHC consists of 266 members 
representing 463 tribes across the U.S., and is the only national 
Indian organization whose sole mission is to represent Native American 
housing interests throughout the Nation and provide its members with 
training, technical assistance, research, communications and advocacy.
    As its core mission, the NAIHC provides invaluable capacity-
building services to tribes, their Indian housing authorities and 
TDHEs. These training and technical assistance services include on-site 
technical assistance, tuition-free training classes, and scholarship 
programs that help offset the cost of attending specific training 
sessions, such as the Leadership Institute, a low cost professional 
certification course for Indian housing professionals.
The Native American Housing Assistance and Self-Determination Act
    Before I address the HEARTH bill specifically, please allow me to 
take you back more than two decades in Indian housing when beginning in 
the early 1990s, Indian tribes, tribal housing authorities, and others, 
came together to craft a new vision of how housing and housing related 
community development programs and services should be administered in 
the era of Indian Self-Determination. The NAIHC was instrumental in 
shaping the debate and in drafting what became the Native American 
Housing Assistance and Self-Determination Act of 1996 (``NAHASDA,'' as 
amended, 25 U.S.C. Sec. 4101 et seq).
    Over the past 40 years, tribes have assumed ever-greater 
responsibility for the design, development and delivery of programs and 
services that were once exclusively the domain of the Federal 
government. Starting with the Indian Self-Determination and Education 
Assistance Act of 1975 (``ISDEAA,'' as amended, 25 U.S.C. Sec. 450), 
Indian Self-Determination is the hallmark of all successful initiatives 
aimed at improving the lives of Native people including health care, 
education, law enforcement and others. In attempting to repeat these 
successes in the realm of housing, in 1996, Congress determined that in 
providing Federal housing services to Indian communities, the U.S. 
should ``recognize the right of Indian self-determination and tribal 
self-governance by making such assistance available [...] directly to 
the Indian tribes or tribally designated entities.''
    NAHASDA is well-rooted in the time-tested principles of local 
decision-making and self-sufficiency. The primary objective of NAHASDA 
is to promote affordable housing that is decent, safe and healthy. 
Since its enactment, NAHASDA has enhanced Indian tribal capacity to 
address the substandard housing and related physical infrastructure 
conditions by encouraging greater self-management of housing programs, 
greater leveraging of scarce Indian Housing Block Grant (``IHBG'') 
dollars, and greater access to private capital through Federal loan 
guarantee mechanisms.
    Housing activities that may be funded with NAHASDA assistance 
include new home construction, rehabilitation, acquisition, physical 
infrastructure, and various support services. Housing assisted with 
these funds may be either for rental or for homeownership. NAHASDA 
funds can also be used for certain types of community facilities if the 
facilities serve eligible, low-income residents.
    NAHASDA is not just about constructing buildings--it is about 
building communities. Historically, the lack of significant private 
investment, well-functioning housing markets and dire economic 
conditions in most Indian communities have all contributed to require a 
vigorous Federal investment in housing and community development in 
tribal communities. Since Fiscal Year 1998, more than $8 billion in 
Federal housing assistance has been invested in Indian Country and has 
helped Indian families make down payments on homes, make monthly rents, 
helped with home rehabilitation and build new housing units. Without a 
doubt, NAHASDA is the single-most important housing tool for Indian 
people.
Indian Trust Lands and the Indian Long-term Leasing Act of 1955
    As successful as NAHASDA has been in the 13 years since enactment, 
it is not an island unto itself in the world of Federal Indian laws and 
policies. Housing and community development is inextricably linked to 
tribal landholdings and their unique legal status. Most Indian tribal 
land is held in trust or restricted status by the United States for the 
beneficial ownership of Indian tribes or individual Indians. While 
trust lands may not be sold, they may be leased to Indians or non-
Indians for a variety of purposes under applicable law.
    The Indian Long-Term Leasing Act of 1955 (the ``1955 Act,'' 25 
U.S.C. Sec. 415) requires the approval of the Secretary of the Interior 
(``Secretary'') for the leasing of Indian trust and restricted Indian 
lands for a variety of purposes. The regulations implementing the 1955 
Act indicate that they apply to ``Indian land,'' which is defined as 
``any tract in which an interest is owned by an individual Indian or 
tribe in trust or restricted status.'' 25 C.F.R. Sec. 162.102.
    The 1955 Act authorizes leases of Indian land for up to 25 years 
with an option for one additional 25-year term--for a total 50-year 
term. These leases may be for ``public, religious, educational, 
recreational, residential, or business purposes...'' As an aside, 
NAHASDA authorizes leases of trust or restricted Indian lands for 
``housing development and residential purposes'' for 50-year terms but 
retains the requirement of Secretarial approval to render the lease 
valid.
    Under the 1955 Act, the Secretary, through the Bureau of Indian 
Affairs (``BIA''), is responsible for administering the land leasing 
process and any lease that is not approved by the Secretary is invalid. 
Before approving a lease, the Secretary must consider certain factors 
such as:
    <bullet>  The proposed use of leased lands with the use of 
neighboring lands;
    <bullet>  The height, quality and safety of structures or 
facilities to be constructed on leased lands;
    <bullet>  The availability of police, fire protection and other 
services;
    <bullet>  The availability of judicial venues for criminal and 
civil causes arising on leased lands; and
    <bullet>  The environmental effects of the proposed uses of the 
leased lands.
    Leases negotiated by an Indian tribe or an individual Indian may 
include remedies agreed upon by the parties including, for instance, a 
requirement that disputes be heard in tribal court. Leases may also be 
advertised or negotiated by the Secretary through the BIA and the 
applicable regulation provides that in reviewing a negotiated lease for 
approval, the BIA ``will defer to the landowners' determination the 
lease is in their best interest, to the maximum extent possible.'' 25 
CFR Sec. 162.107. Under the 1955 Act, the Secretary has authority to 
cancel leases if there are violations of lease terms, and remains 
responsible for ensuring tenants meet their payment obligations to 
landowners and for ensuring tenant compliance with any operating 
requirements contained in the lease agreement. The Secretary may also 
take ``immediate action'' to recover possession from trespassers 
operating without a lease, and may take ``emergency action'' to 
preserve the value of the land. 25 CFR Sec. 162.108.
    The Indian land leasing approval process can be lengthy, taking 
months and sometimes years, which can hinder housing, infrastructure, 
and related economic development on Indian lands. Because of these 
delays, and the desire by individual Indian tribes for more authority 
and latitude in the leasing of their own lands, some 45 Indian tribes 
have sought relief from Congress for amendments to the law through 
specific, tribe-by-tribe Federal legislation. As you can imagine, 
winning enactment of specific Federal legislation to acquire authority 
to enter 99-year lease terms is an unwieldy, lengthy, and expensive 
proposition. As laid out below, the HEARTH bill provides an optional 
and, we believe, an expedited way for tribes to assume greater control 
over their lands and encourage tribal economic development.
Tulalip Tribes
    For instance, the Tulalip Tribes of Washington State can lease 
trust lands, for most purposes described in the 1955 Act without 
securing the approval of the Secretary. Leases can be for up to 15 
years if there is no option to renew; for up to 30 years if there is no 
option to renew and the lease is issued pursuant to tribal regulations 
approved by the Secretary; and for up to 75 years including any period 
of renewal if the lease is issued pursuant to tribal regulations 
approved by the Secretary. In 1981, the Secretary approved the Tulalip 
Tribes' regulations.

Navajo Nation
    In 2000, the Navajo Nation in Arizona sought greater authority 
under the 1955 Act and Congress responded by enacting the Navajo Nation 
Trust Land Leasing Act (25 U.S.C. Sec. 415(e). Under this law, the 
Navajo Nation can enter into lease agreements and renewals of leases of 
trust lands without the requirement that the Secretary review and 
approve such leases. The Navajo Nation was required to develop 
regulations governing leases including an environmental review process, 
before it could institute its own land leasing regime. In July 2006, 
the Secretary approved the Navajo Nation's leasing regulations.
    Under the 2000 law, the Secretary maintains authority to take 
appropriate actions, including cancellation of the lease, in 
furtherance of the Federal trust obligation. The United States, 
however, is not liable for losses sustained by any party to a lease 
(including the Navajo Nation) entered into under the Navajo Nation's 
regulations. Interested parties may, after exhausting tribal remedies, 
submit a petition to the Secretary to review the compliance of the 
Navajo Nation with the regulations approved by the Secretary. The 
Secretary may take actions deemed necessary to remedy the violation 
complained of, including rescinding the tribal regulations and re-
assuming responsibility for approving leases for Navajo Nation trust 
lands.

Indian Home Loan Guarantee Program
    An efficient and effective Indian land leasing framework is 
essential to housing delivery and development, but also to Federal loan 
guarantee programs. I want to touch on one program--the Indian Home 
Loan Guarantee Program--also known as the Section 184 Program. The 
Section 184 loan is a mortgage product, specifically geared for the 
unique circumstances of Native communities, to facilitate homeownership 
in Indian lands and within an approved Indian area.
    In order to address the lack of private mortgage lending in Native 
communities, Congress established the Section 184 Program to offer 
mortgage financing to eligible Native American individuals, families, 
tribes and TDHEs. Notably, the default rate for the Section 184 Program 
remains at less than 1 percent.
    The Section 184 Program involves the issuance of a Federal 
guarantee by HUD on loans made by private lenders. Because tribal trust 
lands may not be foreclosed on in the case of a default, the Section 
184 Program requires that the borrower have a valid leasehold in place 
and demonstrate as much on the application. The borrower and the Indian 
tribe would negotiate a lease agreement covering the relevant land and 
the lease would be subject to the approval of the Secretary. In the 
event of a default, the structure and leasehold interest (and not the 
underlying land) are subject to foreclosure. The requirement of 
Secretarial approval in this instance, as in the others described 
above, can be time-consuming and contribute to low homeownership rates 
in Native communities.

HEARTH Act
    Under current law, Indian tribes (except the Tulalip Tribes and the 
Navajo Nation) are presented with two options: they may choose to 
operate under the strictures of the 1955 Act, complete with the 
requirement of Secretarial approval or, alternatively, they may secure 
99-year lease authority through the enactment of tribe-specific Federal 
legislation.
    In May 2009, Congressman Heinrich introduced the HEARTH Act, which 
will offer willing Indian tribes the authority to enact their own 
tribal leasing regulations and to negotiate and enter into certain 
leases without review or approval of the Secretary. The HEARTH Act 
would also require the BIA to prepare and submit to the Congress a 
report detailing the history and experience of Indian tribes that have 
chosen to assume responsibility for operating the Indian Land Title and 
Records Office (``LTRO'') functions from the BIA. Before Indian lands 
may be encumbered with a home mortgage, the BIA must prepare and issue 
a Title Status Report (``TSR'') to HUD. In 1999 and again in 2005, the 
BIA issued aspirational guidance to its Regional Offices that this 
process should not, to the extent possible, exceed 30 days. Despite BIA 
aspirations that the TSR issuance should take no more than 30 days, 
Congress in 2005 determined that a more realistic timeline for TSR 
issuance is 6 months to 2 years. This is clearly unacceptable 
especially when compared to the title status checks for all other 
Americans that take no longer than 24 to 48 hours.
    In 2000, Congress enacted legislation to establish the Indian Lands 
Title Report Commission to make recommendations to the BIA on ways to 
improve the TSR process. To-date, the Commission has never met due to 
the failure of the Bush Administration to nominate commissioners.
    The study and report mandated by the Heinrich legislation will 
include a review of how the tribal management of the LTRO functions has 
fared and determine the challenges these tribes face in managing these 
functions.

Conclusion
    The NAHASDA has been a welcome shift in Federal Indian Policy, 
which Congress continues to evolve with further refinements and 
amendments. Experience has shown that successful initiatives respect 
tribal involvement and authority, rather than Federal domination. The 
ISDEAA and NAHASDA are based on these fundamental principles and 
confirmed what has been made clear through research undertaken by the 
Harvard Project on American Indian Economic Development: ``When tribes 
make their own decisions about what approaches to take and what 
resources to develop, they consistently out-perform non-tribal 
decision-makers.''
    On behalf of the NAIHC and its membership, we strongly support H.R. 
2523 and urge the Committee to move it swiftly through the legislative 
process. Your continued support of Native communities is greatly 
appreciated, and the NAIHC stands ready to work with you and your staff 
on these and any other issues to improve Indian housing programs and 
living conditions for America's first people.
                                 ______
                                 
    The Chairman. Thank you very much. Let me ask the Governor 
two quick questions, if I might.
    How long does it generally take your Pueblo to approve a 
lease?
    Governor Chavez. You know, we also have partaken in the HUD 
184 program. That in itself is probably about a year's process 
for us. Because the Council has actually expedited our portion 
of it, and normally for them, when it goes back to the Bureau 
is when it is the lengthiest piece. So in a case like that, it 
is about a year.
    The Chairman. What are some of the criteria that your 
Pueblo considers when it comes to approving a lease on 
sovereign lands?
    Governor Chavez. Well, you know, it is very evident, as I 
mentioned in my statement, that if we had to just depend on 
NAHASDA for meeting our housing shortages, we would have a 
long, long wait. So that is something that the tribe has 
deliberately said we are going to, anyone that is interested in 
trying to secure any other kinds of outside mortgage financing, 
that the Council has stood in the affirmative to expedite that 
as much as possible.
    So we are doing what we can internally to expedite that. 
But again, this law would allow us to, once we put in, I mean, 
we are probably right at the front steps of instituting the 
ordinances that we need to accommodate this. And if this Act 
would go through, I think it would allow us to move it even 
faster.
    The Chairman. Vice President Moses, let me ask you what, if 
any, concerns do you have with the current language of the 
Navajo Provision of the Indian Long-Term Leasing Act?
    Mr. Moses. A couple of concerns. One, defunding, lack of 
funding. Two, the kind of vagueness the liability, liability of 
the government. It varies data on what, on what they can be 
held liable for. In my mind, it is trying to back out of the 
trust responsibilities.
    The Chairman. OK. Mr. Trujillo, let me ask you how many 
leases have been approved by the Navajo Nation pursuant to 
their authority granted under the Leasing Act?
    Mr. Trujillo. As of this point in time, I believe we have 
approved a little over 112, I believe. One big issue still 
comes back to conveyance. Let us take housing, for instance, or 
even business sites. We have been able to streamline the 
process within the Nation. We have worked with our governmental 
entities to delegate that to the administrative process.
    But when it comes to conveyance, we send the final packet 
over to the BIA to get that final conveyance, again we run into 
that problem of two months to up to two years to get that 
information back.
    And we made great strides within the Nation. I mean, I have 
people now who can get mortgages; we have developed a process 
to do that. We have recently got a couple homeowners now who 
have been able to pull equity out of their homes now on Trust 
land.
    But again, people can't do that until they get the title. 
And so that has been a real issue with the Nation at this 
point.
    The Chairman. OK. Ms. Parish, to your knowledge, what is 
the on-reservation versus off-reservation population of 
American Indians?
    Ms. Parish. Generally, census data shows around half of 
Native Americans and Alaskan natives live on reservations. The 
other half are within urban settings.
    The Chairman. In your opinion, is this in part due to the 
problems associated with owning a home on tribal land?
    Ms. Parish. Yes, very much so.
    The Chairman. OK, that concludes my questions. The 
gentleman from Washington.
    Mr. Hastings. Thank you, Mr. Chairman. Mr. Chairman, at the 
outset, even though this is a very narrowly focused bill, I had 
mentioned that I thought it was a step in the right direction. 
Because it certainly would give a bit more autonomy to all the 
tribes, and I think that is a step in the right direction.
    And that was confirmed by listening to all of your 
testimony. If there was one common thread, at least in what I 
heard, was a bit of frustration in dealing with the Federal 
bureaucracy.
    So on that line, I want to ask a question not associated 
with this legislation, to Mr. Trujillo. And I would like to ask 
you what is the status of your Desert Rock project coal plant. 
And also, how important is that project to the Navajo Nation?
    Mr. Trujillo. Right now, Congressman, the Desert Rock 
project is awaiting an air permit from the U.S. EPA. We are 
also finalizing the EIS for final determination on that piece.
    As far as the importance that we see with this project, we 
see a tremendous economic benefit, not only in the aspects of 
royalties coming back to the Nation, but also in job creation 
and community development within that given area. And again, to 
add to that, the Nation is also embarking on a new renewable 
effort. We are in the processes before Council now of approving 
a lease for 85 megawatts at the Big Boquitas Ranch. We are 
looking in northern Arizona, looking anywhere between 1300 to 
1800 megawatts of wind power within the next few years.
    So the Desert Rock project is very important to us. It will 
bring additional capital to the Nation, that we can then expand 
not only on economic development, but looking at renewable 
development within the Nation.
    Mr. Hastings. Did you have the clean air permit on that 
plant?
    Mr. Trujillo. We, as of yet, do not.
    Mr. Hastings. Did you have, or has this always been in the 
process?
    Mr. Trujillo. We thought we did, but it has been remanded 
back to EPA for their consideration.
    Mr. Hastings. Did EPA consult with you on that process? Or 
was that done, that remanding back done unilaterally?
    Mr. Trujillo. Right now they have not consulted us on the 
second phase, and I am not sure if we have that ability to 
consult during this period.
    Mr. Hastings. OK. Have they given you a timeframe on this?
    Mr. Trujillo. No, sir.
    Mr. Hastings. OK. Is there any experiences that you can 
draw from your experience with Desert Rock that relates to 
energy, or utilizing your resources? I also, in my opening 
remarks, suggested that maybe we ought to look at this process 
as far as mineral leases. Does this bring any thoughts to your 
mind in that regard?
    Mr. Trujillo. It does. Let us take, for instance, the 
recently completed negotiations with El Paso Natural Gas on 
their pipeline. The Navajo Nation completed those negotiations. 
The agreements have been done and are in place.
    We are fortunately we put in our legislation that the 
company would begin compensating the Nation once the Tribal 
Council approved that lease. As of yet, that lease has not been 
approved by the BIA.
    Mr. Hastings. How long has that been?
    Mr. Trujillo. It is going on a year and a half now.
    Mr. Hastings. OK. Well, thank you very much. And thank you, 
Mr. Chairman, for indulging in these questions that aren't 
directly related to this legislation. But I certainly see a 
common thread here, and I think these sort of issues ought to 
be explored. So thank you all very much.
    The Chairman. The gentleman from New Mexico, Mr. Heinrich.
    Mr. Heinrich. Thank you, Mr. Chairman. Governor Chavez, I 
want to thank you once again for joining us today to offer your 
testimony.
    In speaking with tribal housing officials from across New 
Mexico, one concern that they shared with me is that families 
are having to move off reservations if they want to buy a home 
because of the difficulty of the process.
    Can you talk about why it is important to your community 
for families to be able to continue to live at the Pueblo?
    Governor Chavez. I can probably speak to this from a 
personal standpoint. I have two daughters that are living in 
Albuquerque because there is no place for them to live. I mean, 
I am having to put an expansion on my house to bring them home, 
because I want my grandchildren home. And that is the reality 
of it. Our families are having to move away from our homelands 
because of that very fact.
    And that is an important case, because when you are 
certainly a firm believer in cultural preservation, how you do 
it is engage them in the language that we still speak. And that 
can't be done when your family is separated and split up like 
that. But I am one of many that has experienced it.
    Mr. Heinrich. Thank you, Governor. I think that really gets 
to the heart of why this issue is important.
    Mr. Moses, I wanted to ask you if you think that the 
current leasing process, as it stands today from the 1955 Long-
Term Leasing Act, is consistent with the principle of self-
determination.
    Mr. Moses. To a small degree it allows the tribes to get 
into that. But the BIA is still involved, and it slows the 
process down to a great degree.
    Mr. Heinrich. Would you say that amending how we deal with 
long-term leasing, particularly with respect to this 
legislation, would be much more consistent with self-
determination as a policy?
    Mr. Moses. Yes, it would.
    Mr. Heinrich. Thank you. Ms. Parish, I wanted to thank you 
as well for being here today, and to ask you, I know there is 
an enormous variation among tribes. But generally, can you 
describe the kind of administrative capacity that currently 
exists? And answer the question, are there a number of tribes 
who are already, have a leasing approval process in place that 
would be able to utilize that experience through this process.
    Ms. Parish. Tribes have a varying capacity to enable to 
conduct these activities. My particular tribe, the land office 
is within the Housing Authority, we have a, what appears to be 
a very, very uncommon relationship with the BIA office, and we 
are very, very lucky. And it is two to three weeks to get a 
lease. But they are primarily residential. I don't deal with, 
you know, some of the things these gentlemen fight with.
    Kootenai has a very, very successful program. It would 
depend on the administrative capacity of the particular tribe, 
that they would be willing to put forth teachings or rules that 
would allow us to gain the capacity. I believe there are 
several tribes that could do it right now, and do it quicker 
and more efficiently than it is being done.
    Mr. Heinrich. I am really pleased to hear you say that, 
that you are able to turn some of those around in two to three 
weeks. I think that, you know, when that is going well, I think 
BIA deserves credit for making that a priority.
    Could you tell me a little bit about what role today 
private equity and private investment plays in being able to 
provide affordable tribal housing? And if this leasing process 
were to be streamlined under the HEARTH Act, do you think that 
private capital could play a larger role in providing housing, 
as we have heard so much housing is dependent today on HUD 
funding, obviously.
    Ms. Parish. Until we can straighten out the problem with 
the leasing, nobody wants to play that game. They do not have 
the time available to sit there and wait, and be dependent upon 
that lease process.
    With the 184, there are some that are still two and three 
years out there. We have a very successful relationship with 
outlying banks and use of the 184 and private lending where we 
are. But we have somebody come in, and that is a 6 percent 
rate. And when it doesn't go well, it can jump points, and it 
is financially penalizing my tribal members and tribal members 
throughout the country.
    I mean, we can go through there and get all the documents 
in place, and the whole thing is useless by the time they get 
the approval.
    Mr. Heinrich. And Mr. Chairman, I think that is an 
incredibly important point. If you enter into trying to 
establish a mortgage for a house, and you can secure financing 
that is, you know 5 percent or 5.5, and by the time everything 
has its I's dotted and its T's crossed mortgages are 8.25 
percent, that is prohibitive for a lot of families. So you 
know, you lose out on the ability to take advantage of 
financing at a time when it could really help address the 
housing shortage in many of these tribal communities.
    So with that, I would yield back the balance of my time.
    The Chairman. Thank you. The gentlelady from Wyoming, Mrs. 
Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. Ms. Parish, could you 
tell me if your organization, or if there is some other group 
out there that could provide tribes with technical assistance 
if this law becomes law?
    Ms. Parish. Yes. One of the main reasons for the National 
American Indian Housing Council is to ensure that our members 
and to any tribe that receives HUD funds, to build the capacity 
in those tribes, and to expedite building homes in Indian 
country.
    And this is, besides tax, our biggest barrier in Indian 
country to building homes. We would most definitely be there to 
assist them, and I actually would foresee that that would be 
the main focus of our training.
    Mrs. Lummis. That is fantastic, thank you. And a question 
for Mr. Moses.
    In your testimony you reference ATNI, and said that they 
had established a trust reform work group of tribal leaders to 
provide recommendations on initiatives that affect the trust 
relationship.
    What recommendations can you provide regarding how the BIA 
can streamline the lease approval process in the future for 
those tribes lacking the capacity to pursue the new regulatory 
framework in this proposed law?
    Mr. Moses. I don't want to sound too radical, but if the 
Colville tribal instances, if we were allowed, if we were given 
the funding, if we were allowed to take the leasing from step 
one to the Nth degree, we wouldn't have people waiting years to 
get the leases done. We wouldn't have the problems of lack of 
housing on a reservation, or lack of leasing on a reservation.
    I think if we were to put our heads together in Affiliated 
Tribes, we could create a group within our own organization to 
where the tribes with the capabilities, like I think the 
Colvilles have, to assist other tribes in becoming independent 
in that fashion.
    So I think we would be willing to help each other. And I 
think that is what Affiliated Tribes is all about.
    Mrs. Lummis. I don't see that as the least bit radical. 
That sounds really practical to me, so good for you.
    My next question is actually for the Chairman and the 
Ranking Member. In your experience here in Congress, has there 
been talk about how to rationalize BIA's activities in relation 
to the other agencies that tribes have to work with? They have 
to work with the BIA and EPA, they have to work with the BIA 
and HUD, they have to work with the BIA and Health. And then 
they are embedded in the Department of the Interior with regard 
to the trust obligations.
    Has there ever been talk about removing the BIA from 
Interior, and creating like a stand-alone agency where tribes 
can go to so they don't have to have these layers of the 
Federal government they are dealing with?
    The Chairman. If the gentlelady would yield her time, there 
have certainly been discussions and a concern about 
coordinating all the various agencies to which you refer. I 
don't know about eliminating BIA as such has been a concrete 
proposal, but certainly we recognize the myriad of other 
agencies with whom the Indian tribes have to deal. And there 
needs to be streamlining. There needs to be better 
coordination, cooperation, consultation, all of the above. And 
that is something we have been plugging away at for a number of 
years, but we are not there yet, obviously.
    Mr. Hastings. If the gentlelady would yield, as you know I 
am just coming back as the Ranking Member this year. However, 
my experience representing my district--and I used to represent 
part of the Colville, for example, prior to the 1990 
reapportionment, and so I am familiar with some of the 
frustrations that go on. But I personally have not pursued 
that, simply because I haven't been directly on the committee.
    But I think it is something that ought to be pursued. 
Because I hear that, as you do, anybody that has tribes in 
their district, they know the frustration that is going on. And 
they overlap, and sometimes, frankly, the slowness of one 
agency to deal with that. And that is frustrating to our 
constituents.
    Mrs. Lummis. Well, I appreciate the panelists and also the 
Chairman and Ranking Member for their comments. Thank you.
    The Chairman. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Mrs. Lummis, I have 
been on this Committee for 30 years. One of the jokes we always 
hear, it is a terrible joke, is that when General Custer went 
to his last battle, he turned to the BIA Director and said 
don't do anything until I get back.
    I don't really believe that, but that is the joke that the 
BIA has to live with. I have great respect for them, and have 
worked with them for my 33 years here in Congress.
    Ms. Parish, it is great to see you. I spent some good times 
up at Bay Mills and Brimley, Michigan. I can remember one time 
I went up there, and probably in the same hour, I met probably 
the oldest person there, and one of the youngest. Mr. LeBlanc, 
deceased since then, and Brian Newland, who now is an attorney, 
and he was probably a 14-year-old boy at that time.
    But I can recall you have really defended your sovereignty 
well up there. And sovereignty is not just a theoretical thing, 
it is a practical thing. And the Treaty of Detroit guaranteed 
you the right to fish in perpetuity, and perpetuity means 
perpetuity.
    But the Department of Environmental Quality ruled that that 
treaty was not valid, and that they could not fish. But the 
people of Bay Mills knew they could.
    Mr. LeBlanc tells the story that one night he was out 
fishing, and the DEQ appeared to arrest him. He hid out in the 
reeds and the weeds, hiding out from the DEQ. And he said, 
Congressman Kildee, the mosquitoes were biting me fiercely, it 
was terrible. The only thing that gave me consolation, I knew 
the mosquitoes were also biting the DEQ. So he gave himself a 
declaration of independence there.
    And in every instance you have to really keep fighting for 
your sovereignty. In every instance. They will never come by 
with a meat axe and take a huge chunk, they will take a scalpel 
and cut a slice, a little bit here, slice a little bit here, 
slice a little bit here. And you have to be very careful of 
that slicing. And when they treat you less than a government, 
you have to stand up and defend yourself on that.
    I was chief sponsor last year of the reauthorization of 
NAHASDA. I think this bill will give you some more authority 
under NAHASDA. The bill actually was handled by Barney Frank's 
committee last year, but I think this bill certainly 
complements the NAHASDA reauthorization of last year. And I 
commend Mr. Heinrich for his introducing that, and I wish you 
well.
    Ms. Parish. Thank you very much. The natives across the 
Nation would like to thank you for all of your hard work. We 
have some pretty cold winters up there. We are still fighting. 
My fiance fishes with Mr. LeBlanc's son, and still fights to 
this day.
    Mr. Kildee. Very good.
    Ms. Parish. We will continue to do so. And thank you again 
for your assistance. We have a lot of people out there who 
still need all of your help.
    Mr. Kildee. Thank you very much. God bless you.
    Ms. Parish. Thank you.
    The Chairman. The gentlelady from California, Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. And I guess I 
have, like an old dog, I go back to the same bond: funding. As 
whether or not, in the last Administration, there was a cut in 
some funding.
    However, when you are talking about the waiting time, do 
you have any idea how many are waiting? How many for business, 
for the housing, for grazing, for whatever, that you may have 
waiting--to any of you--that might give us concern that we are 
not helping funding, or should be looking at extension of 
assistance.
    Ms. Parish. We know at the National American Indian Housing 
Council right now, the estimate is a minimum of 200,000 housing 
units are needed in Indian country. So that our houses at least 
have water, and are not overcrowded.
    Mrs. Napolitano. Now, that is needed housing. What about 
those that are waiting for leases?
    Mr. Trujillo. Congresswoman, with the Navajo Nation right 
now, I don't have the leases, but those that are looking at 
equity and mortgaging we have about 75 people who are ready to 
do that right now. But we can't do it because we can't get the 
title conveyed over from the BIA back to those individuals.
    Mrs. Napolitano. And the reason?
    Mr. Trujillo. We are not sure. It is like it goes into a 
black hole, and we just wait for it to pop back out. So we have 
gotten the documentation put together, and we are just awaiting 
the conveyance of that.
    In some instances it does come back that they have issues 
with the historic data, which means we have to go back and fix 
all of that. And so that is at our cost. And so that was one of 
the areas that I was noting. We have the data system in place, 
we have the process in place; we can do that work. But again, 
it takes that funding, and the CBO indicated there was no cost 
to us. There is a cost to us, because you have to clean that 
historical data.
    And just to add to what this would mean to us is, as 
Congressman Heinrich noted, bringing our younger people back. 
Because I would like to remind members of the Committee, who 
are the movers and shakers of your community, it is that 25, I 
call them the soccer moms and the basketball dads, they are the 
ones with the energy. They are the ones on the school council. 
They are the ones on the city council. They are the movers and 
shakers of a community.
    That is who the Navajo Nation is missing, because they all 
live in Albuquerque, Paige, Washington, D.C., Los Angeles. And 
they are the movers and shakers in these communities, whereas 
they should be back in Chinle, Tuba City, Kayenta, Shiprock, 
making those communities viable communities.
    And so again, that is why it is important for us to get 
this in place, so our younger people can stay home and actively 
participate in our communities, and be an active part in 
developing our nations.
    Mrs. Napolitano. Great point. And you are very right; our 
youngsters, they are our future leaders. And if we don't get 
them where we need them, then we are not helping ourselves.
    You referred to the data costs and CBO says there is no 
cost. That was my next question, what is your cost, and how are 
you paying for it? And is there any way of being able to 
determine what it really will help expedite? You said they are 
waiting, maybe, Mr. Chair, we need to find out from BIA why the 
delay on these specific cases, if nothing else, to begin with. 
But also, why are they saying there is no cost when they have 
to go back and scrub? And are they using or developing a 
template to be able to use and say before those applications go 
in, these are the requirements that you will have to meet 
before we accept these applications, for whatever it is.
    Mr. Trujillo. Well, again, Congressman, Mr. Chair, right 
now, looking at the exact waiting aspects of that, the costs in 
terms of the cleanup, right now we are looking at phases at 
this point as far as the Nation is concerned.
    At this point, we are estimating about--well, we are 
looking for between $8 to $10 million to get some of these 
initial steps going.
    I heard mentioned the TAMS system. We are not even touching 
the TAMS system, because again, there is a lot of concern about 
that whole system. The Nation has developed its own system that 
has, we are getting that before the ISO and ANCI to make sure 
it qualifies for those areas in terms of record management and 
record-keeping and security.
    So we are looking at that process, too, to begin to develop 
that full process. We have been doing this piecemeal. I have 
been pulling nickels and dimes out wherever I can in order to 
get this thing going. Because we finally came to the 
determination in 2007, we can't wait, let us just go do it. And 
so that is what we have been doing.
    So again, looking at the development of that, getting the 
necessary personnel to follow through on that, and because 
these records are so sensitive, there has to be training and 
there has to be security involved in this, too. So all of this 
costs money. And right now, like I said, we are looking at $8 
to $10 million to get ourselves up to speed in terms of the 
initial personnel, and then also getting the data system in 
place so that we can convey that.
    Now, we have done that within the Division of Natural 
Resources. We are also conveying this over land parcel status, 
so we can have not only surface information and description, 
but also subsurface. Because within my division, I have all 
those areas, as well as cultural, mineral rights, water rights, 
all those ties to the parcels of land.
    But again, it starts from the very basics. We only have 25 
percent of our land under the National Survey right now. The 
other pieces are still tied to roads, trees, rocks, hills. And 
so when we convey that information to get a title, it is shot 
back to us. And so again, we have to go and clean that historic 
information up so that there is a clear title, or a chain of 
title, so that the financial institutions can look at that both 
for mortgaging aspects, as well as, like I said right now, we 
are looking at equity.
    Mrs. Napolitano. Mr. Chair, I would like to ask one more 
question, and it has to do with TAMS. Is it something that is 
advantageous to any of the tribes? Were you consulted in being 
able to set it up? Is BIA aware of all the work that you are 
doing? Are they helping you add to your information to be able 
to add to the historic value?
    Mr. Trujillo. We are in the processes of working with our 
regional office. We went ahead and basically took the bull by 
the horns, and are developing this on our own, looking at what 
is needed in terms of record-keeping and what kind of security 
efforts we would need within the Nation.
    We have done a lot of modifications on our leasing aspects. 
We are now going to home-site leasing. We have an eminent 
domain process in place. So the idea here is not how to build a 
system in order to make sure all of that is recorded, and we 
have access to that information on all the parcels of land.
    And so basically what we are looking at, Congresswoman, is 
eventually coming to the point where we take over the title 
plan. And we have that under our jurisdiction for Navajo land. 
By that means we obtain not only then to put these packets 
together, but we will also convey it and get those issues out 
to our people.
    On the local side, we have also gone to what is known as 
local governance, meaning now we are beginning, as was noted 
before. On tribal lands you have to, because it is designated 
as Federal land, whenever you do anything, even up to a home-
site lease, that is a Federal action. Meaning we have to follow 
through with NEPA. We have to do an environmental assessment, 
we have to do an archaeological clearance, we have to do all 
those things.
    What we have now designated is to have chapters go out and 
develop land use plans by which they are now going on larger 
tracts of land to do this clearancing. So in essence, we are 
beginning to look at zoning for our local areas. So that when a 
person wants a home-site lease in an area, and it is designated 
as a residential area, they don't have to go through NEPA or 
archaeological work. They already have that done.
    But again, all of this has to be recorded, and it has to be 
applied to the parcels of land that we have out there. So that 
is the system that we are putting together, with the idea that, 
based off of the Navajo Leasing Act, if other tribes wish to 
utilize the system that we have developed, we are open to that. 
Because again, we are building this with the idea of looking at 
Trust land and keep simple lands in mind. Which is different 
than lands that are outside the reservation.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    The Chairman. Mr. Inslee.
    Mr. Inslee. Thank you, and thanks for the Colville leader 
for coming. I appreciate it.
    I want to note that Mr. Hastings is proud of having 
representing the Colville Nation. And I just wanted to point 
out that I represented it before Mr. Hastings, so I just want 
to make sure that I have seniority in regard to the Colville. I 
am sure he respects that.
    Council member Moses, I read your testimony. I didn't get 
to listen to it, but I read it. But you talked in there about 
the sort of procedural aspects of being able to handle the 
leaseholds to a system that would be faster to the current 
system. You alluded to the delays and just the procedural 
aspects of that. Could you talk about how you think this 
legislation could help or hurt in that regard?
    Mr. Moses. Just by getting the BIA to begin recognizing 
their trust responsibilities, and to--the only way they can 
actually get things going is to get a new system, new computer 
system altogether. I think they got a new computer system about 
four or five years ago, and it was antiquated then. Nobody 
wanted it except the BIA.
    If they went to a system, an automated system that was 
comparable to IBM or something like that, then they wouldn't 
have the problems of not being able to update their hardware in 
a timely fashion. And that would be comparable to the tribe 
system, you know.
    We are probably in the 21st Century; the BIA is still in 
the 19th Century. You know, we have the laptop computers or 
Blackberries, and they still have the big, huge, antiquated 
systems. If they were able to update their automated systems, 
then that would go a long way to getting rid of some of the 
backlogs that they have.
    Funding, again--everything I think points to funding. The 
Congresswoman asked the question about getting us out from 
under the BIA. I am not a real supporter of the Bureau, but I 
am not a supporter of BLM or any of those other agencies. 
Because they are worse on Indian affairs than you would have 
thought. They split the BIA in half and created an Office of 
Special Trust. Now, that really did nothing to enhance the 
dealings with Indians in the government.
    In fact, it slowed everything down more so, because they 
took away the funding that the BIA had, which was woefully 
underfunded to begin with. And now they have the Office of 
Special Trust, which has a lot of funding, but they don't do 
much for Indian country.
    So if they were to automate themselves, get the BIA 
automated, get them comparable with the Indian tribes that they 
are supposedly over, then I think we would have a lot of these 
problems solved.
    Mr. Inslee. Thank you, that is helpful. I appreciate it. 
Say hello to our friends at home.
    Mr. Moses. Will do.
    The Chairman. Any other Members with questions? If not, the 
Committee wishes to thank each of the panelists for taking the 
time and the travel and effort to be with us today. The 
testimony has been very helpful to us.
    And again, the Chair wishes to commend the gentleman from 
New Mexico, Mr. Heinrich, for his tremendous leadership and 
introduction of this legislation. And we look forward to 
working and continuing to work with all the parties.
    Thank you. The Committee on Natural Resources stands 
adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
